<html>
<title> - INTERMODAL HIGH-SPEED RAIL CONNECTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                 INTERMODAL HIGH-SPEED RAIL CONNECTIONS

=======================================================================

                               (111-109)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                      May 3, 2010 (Miami, Florida)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                        U.S. GOVERNMENT PRINTING OFFICE
56-422 PDF                    WASHINGTON: 2010
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001










             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               VACANCY
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

?

     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

DINA TITUS, Nevada                   BILL SHUSTER, Pennylvania
HARRY TEAGUE, New Mexico             THOMAS E. PETRI, Wisconsin
NICK J. RAHALL II, West Virginia     JERRY MORAN, Kansas
JERROLD NADLER, New York             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         HENRY E. BROWN, Jr., South 
GRACE F. NAPOLITANO, California      Carolina
JASON ALTMIRE, Pennsylvania          TIMOTHY V. JOHNSON, Illinois
TIMOTHY J. WALZ, Minnesota, Vice     SAM GRAVES, Missouri
Chair                                JIM GERLACH, Pennsylvania
MICHAEL A. ARCURI, New York          CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  LYNN A. WESTMORELND, Georgia
ALBIO SIRES, New Jersey              JEAN SCHMIDT, Ohio
MARK H. SCHAUER, Michigan            CANDICE S. MILLER, Michigan
BETSY MARKEY, Colorado               VERN BUCHANAN, Florida
MICHAEL E. McMAHON, New York         BRETT GUTHRIE, Kentucky
THOMAS S. P. PERRIELLO, Virginia     AARON SCHOCK, Illinois
PETER A. DeFAZIO, Oregon             ANH ``JOSEPH'' CAO, Louisiana
JERRY F. COSTELLO, Illinois          PETE OLSON, Texas
BOB FILNER, California               VACANCY
EDDIE BERNICE JOHNSON, Texas
LEONARD L. BOSWELL, Iowa
RICK LARSEN, Washington
MICHAEL H. MICHAUD, Maine
DANIEL LIPINSKI, Illinois
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (ex officio)

                                 (iii)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Calvet, Cesar, Chairman of the Board, Orlando International 
  Airport........................................................    25
Colan, Bruce Jay, Chair, Greater Miami Chamber of Commerce.......    25
Dale, Terry L., Cruise Lines International Association...........    25
Galloway, Drew, Assistant Vice President, Policy and Development 
  East, National Railroad Passenger Corporation (Amtrak).........    25
Giuletti, Joseph J., Executive Director, Tri-County Commuter Rail 
  Authority (Tri-Rail)...........................................    25
Kopelousos, Stephanie C., Secretary, Florida Department of 
  Transportation.................................................     9
Sotorrio, Ana, Associate Director, Governmental Affairs, Miami 
  International Airport..........................................    25
Szabo, Joe, Administrator, Federal Railroad Administration, U.S. 
  Department of Transportation...................................     9
Trujillo, Andre, Florida State Legislative Director, United 
  Transportation Union...........................................    25

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Shuster, Hon. Bill, of Pennylvania...............................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Calvet, Cesar....................................................    52
Colan, Bruce Jay.................................................    85
Dale, Terry L....................................................    93
Galloway, Drew...................................................    96
Giuletti, Joseph J...............................................   102
Kopelousos, Stephanie C..........................................   112
Sotorrio, Ana....................................................   119
Szabo, Joe.......................................................   125
Trujillo, Andre..................................................   131

                        ADDITIONS TO THE RECORD

Miami-Dade Expressway Authority, Javier Rodriguez, P.E., written 
  testimony......................................................   134

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]




                       INTERMODAL HIGH-SPEED RAIL

                              ----------                              


                          Monday, May 3, 2010

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., at 
the Miami-Dade College, Chapman Room, Room 3210, 300 NE 2nd 
Avenue, Miami, Florida, Hon. Corrine Brown [chairman of the 
Subcommittee] Presiding.
    Ms. Brown of Florida. Will the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials come to order.
    The Subcommittee is meeting today to hear testimony on 
intermodal high speed in the United States. Hello, and thank 
you for being here today for this extremely important hearing.
    As I'm sure many of you know, I'm Congresswoman Corrine 
Brown, the Chair of Subcommittee on Railroads, Pipelines, and 
Hazardous Materials, and as I said earlier to the Chamber, I am 
Miamis Member-at-large.
    I'd like to welcome everyone in attendance to this 
important hearing, in particular, the panelists and other 
Committee Members who made this trip down here.
    I would also like to give a special thanks to the Miami- 
Dade College for hosting this event and where is the president? 
I want to thank you for hosting this event, and as I said 
earlier, we thank you, Mr. President. I am a community college 
lover, having worked 16 years at Florida Community College.
    I would like to commend the college and their plan to open 
a new institute for intermodal transportation which will 
address the training and employment needs for the Miami-Dade 
County dynamic transportation industry.
    The importance of passenger high speed rail cannot be 
overstated, and I always say that once we have the first two or 
three lines up and running, the benefits of high speed and 
intercity passenger rail investment will become evident both to 
the American people and to policy-makers in Washington.
    These initial rail lines will then serve as a successful 
model and inspire the funding and construction of future 
projects.
    For me, as the Chair of the Rail Subcommittee, the eventual 
goal is to have high-speed intercity passenger and commuter 
lines connected nationwide to serve as an alternative to our 
current system of transportation, or in addition to our current 
system of transportation.
    Obviously, being from Florida, I was more than happy to see 
that our State was one of the first designated high-speed rail 
lines, and I will certainly utilize all of the resources at my 
disposal to work toward expanding that line to South Florida 
and eventually all the way to the coast of Jacksonville.
    Moreover, if as a nationwide high-speed and intercity 
passenger rail system is realized, we will not only serve as a 
tremendous benefit to our nations transportation needs, but it 
will also be a superb asset to our getting people back to work 
by creating quality jobs in our economy manufacturing sector.
    Just the other week, I led a whistle-stop-rail-tour to 
promote high-speed and intercity rail passenger in the United 
States. We started in Washington, traveled to Upstate New York.
    By the way, passenger rails started in 1835, the first 
successful line, and we ended up in Chicago where we conducted 
a major hearing on rail issues.
    This is the first stop, as we do the Florida tour. Always, 
I am assuring everyone that the 8 billion dollars in the 
Recovery Act was just a down payment and that there will be 
more plans and construction dollars coming in the near future, 
but we need to get serious about funding high-speed rail.
    With just one billion dollars budget for fiscal year 2011, 
we need to find a dedicated revenue source so that the States 
operators and manufacturers aren't afraid to make investment in 
infrastructure and manpower.
    In fact, I felt so passionate about this that I spearheaded 
a letter, that over a hundred Members signed to President 
Obama, requesting that he include a dedicated source of revenue 
for high-speed rail, and the transportation reauthorization 
policy objective the administration is developing.
    We still have a lot of work to do before the first 
passenger boards the high speed train in the United States, but 
we're off to a great start with the investment made in the 
Recovery Act.
    I can--I can guarantee everyone here today that I plan to 
work hard with my colleagues on the Committee to include a 
robust rail title in the in the new reauthorization deal.
    Thank you.
    With that, I would like to welcome todays panelists and 
thank all of them for joining.
    Before I introduce Mr. Shuster, I would ask the Members to 
give 14 days to advise and extend their remarks and to permit 
the submission and additional statement and material by Members 
and witness. Without objection so ordered.
    I yield to Mr. Shuster for his opening statement.
    Mr. Shuster. Thank you, Chairwoman; and welcome to our 
witnesses today.
    I'm going to submit my entire record of my statement for 
the record. I'm just going to abbreviate it because I know 
we've got some time constraints------
    Ms. Brown of Florida. OK.
    Mr. Shuster. --on us today.
    But I want to thank Miami for hosting this afternoon. I 
think, as we all know, high-speed rail is important to future 
transportation in our nation, and whats happening here in 
Florida is exciting. I know the second phase of second-- Phase 
Two, Florida's high-speed rail system for Orlando to Miami is 
still in the planning stages. I know that Florida was a big 
winner being awarded 1.2 million dollars toward the Tampa to 
Orlando line of that high-speed rail.
    And its important that we not fall behind. Our friends and 
competitors around the world, as I think most people that 
follow the rail industry, know how successful our freight rail 
is, but our passenger rail has fallen behind. The Europeans, 
the Japanese, and the Chinese, are all making major or have 
made major investments in high-speed rail and they continue to 
improve that portion of their transportation systems. So we, 
again, need to make sure that we don't fall behind.
    I have been concerned that of the--the 8 billion dollars 
that went out, 76 of those projects went to Amtrak. I thought 
there were probably some other projects or consolidated some of 
those and really focused on high-speed rail around the country 
instead of distributing widely throughout the country.
    And I think its important that theres competition for 
Amtrak out there, and we need a--we need a passenger rail 
system, but bringing the private sector into passenger rail, I 
think helps us to control costs, and as I said, competition 
makes the service better and keeps it efficient and effective.
    So with that, again, I'll submit my entire statement and go 
back to the Chairwoman, and thank the Chairwoman for having the 
hearing today in Miami.
    Ms. Brown of Florida. Thank you.
    Mr. Mica. Well, thank you so much. First of all, I'm 
absolutely delighted to be back here. This is my community 
college. I graduated in 1995. I think I've been back before for 
a hearing in this room. But, delighted to be back here. I know 
President Padron is happy to have the Committee and 
Subcommittee have a hearing here at our distinguished campus 
and very distinguished panel. Mr. Oberstar, welcome to Miami 
in, again, my back yard, and we're so pleased. Mario, this is 
his corner of the world, hosting us, and Mr. Shuster from 
Pennsylvania and other staff here. Great University, I told Mr. 
Shuster that it had 120 thousand students. It shows where I 
left off. It's a 170 thousand. We were corrected. It's 
incredible. It gave me great opportunities and it's great to 
return.
    I just want to say a couple of things. I had an update last 
week and then this morning by some officials on some of the 
progress. I talked to the Secretary on some of the progress 
thats been made here in Miami. It really is incredible. I have 
to take my hat off to the community leaders, the local, 
Federal, state, and local officials. If you came into the Miami 
airport, you saw a new Miami airport being born. And it's a 
little bit like giving birth to a porcupine. That one point one 
mile linear concourse is quite a hike. But when we get it 
done--I heard some people behind me say, ``When the hell is the 
people-mover going to be done around here?'' I didn't know who 
they were, and I said ``about a year.'' But it will come, and 
to think that we're moving about a 130 million passengers and 
keeping that operating. And then as you go out, folks, and Mr. 
Shuster and Mr. Oberstar as you came in, you saw we're going to 
have, in addition to that one point one mile reconfigured 
linear terminal, we will have people-mover over to our 1.7 
billion dollar intermodal center, and that is hot-dog. It's 
coming. Fantastic. Tri-rail is down there, and we're going to 
have a metro rail connector to the last two miles connect into 
it. I did learn this morning, however, and I asked the 
question. The FEC lines do not connect into the intermodal 
center. But I'm telling you that--I'm told that it's only a 
matter of blocks. But we have to authorize and we got to set as 
a priority. Now I don't know if we are going to have a high 
speed line--we probably won't on the FEC lines. But we'll 
probably have commuter service. We--they continue to approve 
that portion of their transportation system. They have been 
concerned that the eight billion dollars that went out--that 
the eight billion went to Amtrak. They are focusing on high 
speed. They are demanding competition for Amtrak out there.
    The route from Orlando to Tampa is not the best route. It 
doesn't have the connection into the Tampa airport. A whole 
bunch of questions loom there. But I'm willing to work with 
folks and see if we can't make that a success.
    Folks, we have got to come south. This is where millions 
and millions of people live. People fly into Miami airport. Our 
joke is they walk out front and ask the taxi driver to take 
them to Disney World which happens to be like a four hour taxi 
drive. They don't realize its not next door to downtown Miami. 
But thats a winner and I'm pleased to learn from the State that 
the study is well underway to bring high-speed rail down here, 
and it does make sense in that long--that long distance to 
travel.
    Finally, I have to also be critical of Amtrak, and we'll 
hear from their representative and another panel, the 76 or 78 
projects that were hijacked--that hijacked most of the 8 
billion dollars that we need, to learn more about how those 
decisions were made. I can't--doing 39 mile an hour trains in 
which Greyhound can move people faster than the--the improved 
rail service, doesn't make economic or travel sense, and we 
can't do that with tax payers money.
    I continue to bash the administration on some of those 
awards, which is part of my responsibility to do it 
constructively. From this point out, I do commit to work with 
the administration. Mr.--when we held that hearing a few weeks 
ago in Chicago, Mr. Szabo got the brunt of our criticism and 
concerns of expression, which we'll try not to beat him up too 
badly today. Thats a promise. I'm at home so I have to be nice. 
But Chicago we won't be invited--back there anytime soon, Mr. 
Shuster, but we do have serious questions in differences of 
opinion, which is part of the process that does need to be 
resolved if we want high-speed rail. We want successful well-
operated intercity service. We want South Florida to be a 
successful model not only for the State but the nation.
    Thanks for bringing the Committee here, Ms. Brown, and Mr. 
Oberstar, and Mr. Shuster. Mr. Diaz-Balart and I are delighted, 
thank you so much. Yield to her.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. One of the things I like about this 
Committee that I've served on since I've been in Congress is 
the bipartisan nature of this Committee, and we certainly work 
together and one thing we both agree on, Mr. Mica, that for 
high-speed to work in Florida, it needs to start right here in 
Miami. How about that?
    Let me call on the next Member, who is my classmate, Mario 
Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. Its 
a privilege to--to be with all of you here. And its a huge 
honor to have this Committee, not only Chairwoman Brown, who 
her and I have been working on issues for longer than I care to 
talk about but also the Chairman and the Ranking Members of the 
full Committee and Ranking Member of as well. Its a huge 
privilege.
    Let me just--I do want to just--if thats all right with 
you, Madam Chairwoman, theres a lot of friends here that I want 
to mention, and I'll miss some. I'm not going to talk about all 
of them, but we are at Miami-Dade College and as Mr. Mica said, 
this is a very special institution, and its always an honor to 
have, you know, institutions like this. They don't work without 
great leadership, and we are blessed to have one of the best 
leaders in higher education in the country and thats President 
Padron, and its a privilege to be at your small mom-and-pop 
little college here, only having so many thousand people, 
right? But thank you for your leadership.
    Theres obviously a lot of people from Miami-Dade County 
that are here. I see Andrew Sevillo is back there someplace, I 
don't know if you're going to hear me speak or not, but its 
always good to see you, my friend. And folks from Tri-Rail are 
here.
    And Bruce J. Colan is here; where are you, Bruce? Greater 
Miami Chamber of Commerce, thank you for your leadership.
    Speaker Gustafson I saw back there, former Speaker of the 
House of Representatives of the State of Florida, now working 
with FIU doing a great job.
    Its wonderful to be here today and its a privilege to have 
all of you here. Again, to have the Committee is a big, big 
deal and as the Chairwoman said, this is a Committee that is 
nonpartisan. We work extremely close together. I think a great 
part of that is because of the leadership of the Chairman, of 
Mr. Oberstar, who is known as--I can tell you hes one of the 
great gentleman in this process, and I know in the day of 
sometimes very little civility, one can learn a lot from 
Chairman Oberstar as to how one should deal with individuals, 
whether you agree or disagree with them.
    Madam Chairwoman, I also know that, you know, theres a lot 
of issues that we are going to be talking about, obviously.
    By the way, I should have mentioned the two people that are 
here on the front dais, and we're going to hear from both of 
them. I've worked with in particular, Secretary Kopelousos for 
a long time and like--like Corrine Brown, these are-- and Mr. 
Mica, in particular, they're great leaders in high- speed--
high-speed rail, and I look forward to--to listening to both of 
you and I look forward to working, obviously on this great--
great project.
    I know that some of my colleagues, I guess, traveled on 
Tri-Rail yesterday and thats something thats very, very 
critical for our community, for our area.
    There are also a lot of other issues, Metro-Rail, that is 
key for our area, freight rail, and I hope to have the 
opportunity to talk a little bit more about it, though its 
moving out of the--out of the subject matter today, but its an 
issue that the Chairwoman is keenly concerned about it, and so 
hopefully we'll have an opportunity to talk about that today.
    Now, just very briefly to close, I know that also Mr. Mica 
mentioned MIC, the--and that is a huge--oh, its a model, I 
think, of the rest of the country, as to how things can 
hopefully work, and that took place because of great leadership 
on the local and state level.
    I had a little bit part to do that with 100 million dollars 
that came from the national level. I need to recognize their 
Former Chairman Don Young and former Subcommittee Chairman 
Petri, but theres also somebody here on the dais who doesn't 
ever get recognized but who had a great deal with teaching me 
and showing me and getting us going in the right direction to 
try to come up with that 100 million dollar credit, and that is 
our great, well, I guess the staff director, Joyce, but shes 
now the counsel, Joyce Rose is one of those people that doesn't 
get any of the credit, but without her, just so you all know, 
without her, theres a good chance that MIC may not be there, at 
least would not be there the way it is today, and I think its 
important to recognize those who never get the credit and shes 
one of the people that deserves all the credit. Without her we 
wouldn't have it.
    Its great to be here in South Florida with all the people 
who care about this issue. Its great to have this opportunity 
and the Committee Chairman and the Ranking Member of the Full 
Committee here and I look forward to this hearing.
    Thank you, Madam Chairwoman.
    Ms. Brown of Florida. Thank you.
    And lets be clear, we all know if it wasn't for our great 
staff, we wouldn't be as successful as we are, and so will all 
the staff just wave your hands so we can thank all of you for 
making us look good.
    We are really honored to have the Chairman of the 
Committee; Mr. Oberstar is the transportation guru. I don't 
care what subject, whether its rail or whether you're talking 
about airports or whether we're talking about freight rail and 
the importance of separating freight and high-speed rail or 
whatever the subject, Mr. Oberstar, we're just so lucky to have 
his leadership, his guidance. We're lucky to have him here 
today and without further ado, let me hear from the Chairman of 
Transportation, Mr. Oberstar.
    Mr. Oberstar. Thank you very much, Madam Chairwoman. You 
are--I call Corrine Brown, Ms. Amtrak. She--when our party was 
in the minority, she led the charge, a bipartisan charge, to 
restore funding for Amtrak. She sees the issues of the freight 
rail and has a clean, sure grasp of those issues, and now as 
Chair of the Rail Subcommittee, she has proved herself with 
superb leadership.
    Mr. Mica and I and Ms. Brown and Mr. Shuster, together, 
have worked on reshaping Amtrak, fashioning the first 
authorization 12 years of Amtrak and I must say that John 
Mica's fingerprints are all over the Amtrak reauthorization of 
high-speed rail as is Mr. Shuster along with Corrine Brown.
    I'm glad to see the Secretary of Transportation here, 
Stephanie Kopelousos. I love that Greek name. The sound of it.
    And then President Eduardo Padron, muchas gracias por su de 
venir, muchas gracias.
    I want to compliment Secretary Kopelousos on her splendid 
management of the stimulus funds provided for Florida. It took 
a while to get those out to bid, but out to bid now, you have 
1.1 billion dollars, 862 million and a formula program, 91 
million committed under capital assistance for transit and 
whats not Committees directly in your jurisdiction, the State 
has committed all 132 million of its allocation for the clean 
water revolving waste water treatment projects. Number one in 
the nation, number one eh, also being Minnesota. Or I'd have 
broken their kneecaps.
    And you selected large scale projects that would take 
longer to--longer to complete. Design and engineering would 
take longer to complete but would have sustainable jobs and 
employment, and its a great tribute to you.
    I had a number of things I was going to say in preparation 
for this hearing and after the chamber luncheon today, Madam 
Chairwoman and Mr. Mica, I heard--we heard from a wide range of 
participants in the Miami-Dade Chamber of Commerce and what 
came across to me is this spirit of cooperation, spirit of 
partnership and a clear understanding. Each expressed the need 
for not just multi-modal, all the various modes of 
transportation, but for the intermodalism that is essential to 
make your transportation system. A recognition; the airport, 
the water port, the rail port, the highway segments, are all 
linked and in the underlying theme of discussion today was 
economic development.
    When President Eisenhower announced his plans for the 
interstate highway system. He said the Nation urgently needs an 
interconnected interstate highway system for nation defense, 
for safety. We're on track to kill a 100,000 people a year, and 
for economic development, in his words, to promote economic 
development. What was the last statement in the Eisenhower 
opening remarks, opening paragraph, it now has become the first 
thrust of interest. Everyone understands your highway, your 
airway, your waterway, your railway, all are interconnected. If 
you're going to progress, you have to develop all of them and 
you have to connect and link them.
    That is in our submission to the Committee in the Water 
Resource and Development Act of 2007, which again was a 
bipartisan bill that had lagged and it had gotten though the 
House a couple of times, through our Committee a third time, 
never through the Senate. Mr. Mica and I put our shoulders 
together and moved the bill through the House, got Senate to do 
the same, and now you have an authorization for a 50 foot 
channel to accommodate the new container vessels coming through 
the new expanded Panama Canal.
    This port and Los--Port of Los Angeles, Long Beach, and 
Jacksonville are the three most important tourism ports for 
cruise ship service.
    Your airport is the most important gateway to Central and 
South America, with over 30 million passengers a year.
    I was here in 1996 with our then Chairman, Mr. Shuster, for 
announcement of the funding for improvements to the terminal, 
runway, taxi ways, and coming here today, I see the fruition of 
all of those initiatives undertaken a decade and a half ago.
    You really are the template for intermodals. You have a 
State plan. I'm impressed to see that, the Sun Rail, the Tri- 
Rail, the State rail plan commission, the 60 million dollars a 
year committed by your State legislature. Those are 
complimentary to the partnership with the Federal funds 
provided by President Obama.
    In making his commitment to the 8 billion dollar 
investment, he said this is a down payment. This is the start 
of the whole process of converting America to high-speed rail.
    And unlike Europe, I hold up, and many others do, France, 
Germany, Spain, Italy, China, South Korea, Japan with their 
high-speed rail systems. They all built those green. We have to 
operate our passenger rail in the freight rail court. We have 
to respect the urgent needs to move freight. Europe doesn't 
have such a system, but they have committed to a 1.4 trillion 
dollar, 20 year infrastructure investment plan, and it includes 
adding freight rail, much of that building new, expanding their 
passenger rail system.
    We're there now and there is this down payment commitment 
and so as Mr. Mica rightly says, the Ohio proposal for 30 mile 
an hour project, it has--its on a 79 miles an hour track, but 
the best the trains can do now is 35 miles an hour. So we're 
going to start there, but its going to increase to 79 miles an 
hour, and they're going to increase beyond that. We have to 
start somewhere.
    We're starting with the freight rail system. We're starting 
with the remnants that were left behind when the freight rail 
systems abandoned passenger rail and the Federal Government 
took it over.
    But right here in Miami, you--and in the State of Florida, 
you are a template for intermodal transportation and I look 
forward to hearing your comments and your testimony about where 
you are, and where you plan to move into the future.
    Ms. Brown of Florida. Thank you, Mr. Chairman.
    I'm pleased to introduce our first panel of witnesses.
    We are honored to have Joe Szabo, who is the Administrator 
of the Federal Railroad Administration, and I want to thank him 
publicly for changing his schedule. I know he was scheduled to 
be in Orlando. He had to adjust it to come here, and I want to 
let you know I did remember something from your testimony in 
Chicago, because we talked a lot about 50 years ago when 
Eisenhower started the highway system. It took them three years 
to get the first grid out, and it took him three months, thank 
you, Mr. Szabo.
    And also our Secretary, Stephanie Kopelousos. Stephanie and 
I rode the train from St. Augustine to Jacksonville, on 
Saturday, the FEC line, and it started right here in Miami at 8 
o'clock in the morning and went all the way to Jacksonville. So 
we are really excited about a rail. And you know, when we 
travel around the world, everybody wants to tell us and ask 
questions about our freight rail, and we want to ask them 
questions their high-speed rail. But I can tell you that we're 
moving forward. Because of this administration, we got the 
first down payment and we're very excited about it, 8 billion 
dollars, and looking forward to having a dedicated source of 
revenue, and with that, I'm going to turn it over to the 
Administrator.
    Thank you again for readjusting your schedule.

    TESTIMONY OF JOE SZABO, ADMINISTRATOR, FEDERAL RAILROAD 
    ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION; AND 
   STEPHANIE C. KOPELOUSOS, SECRETARY, FLORIDA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Szabo. Thank you, Madam Chairwoman, Chairman Oberstar 
and Ranking Member Mica, Ranking Member Shuster, for inviting 
me here to Miami to update you on the Presidents High-speed and 
Intercity Passenger Rail Program.
    And Madam Chairwoman, I'd particularly like to thank you 
for hosting this hearing and the one on April 20th in Chicago, 
because these forums provide a valuable opportunity to 
highlight our passenger rail initiative and deliver our message 
to different parts of the country.
    Over the past year, there has been a dramatic change in our 
nations view on transportation, and specifically, the 
development of passenger rail systems throughout the country.
    Less than two years ago, a Federal partner for the states 
to develop passenger rail didn't exist. The Passenger Rail 
Investment and Improvement Act, championed by this Committee, 
put a new spotlight on intercity passenger rail.
    Combined with the 8 billion dollars provided in the 
Recovery Act, this has created the single largest national 
investment ever in passenger rail.
    Support for the program is evident in the numerous 
applications we received. Some 259 applicants, requesting 57 
million dollars, competed for the 8 billion dollars that was 
available. At FRA, we worked hard to quickly review these 
proposals. In less than a year after the Recovery Act was 
enacted, the President announced that 31 states and the 
District of Columbia, would receive grants. And this includes 
major investments in Florida and California; the only two 
states to apply for help setting up brand new express high- 
speed rail systems.
    We've remained confident that this state driven program 
will be successful as projects meet the needs of passengers in 
individual markets.
    Its not a one size fits all initiative. Its about insuring 
the comprehensive passenger rail network that allows states to 
tailor make their corridors, to cost effectively meet their 
individual market needs.
    Over time, our goal is for a number of regional routes to 
link cities and regions together, creating a seamless network 
that offers Americans a real transportation alternative.
    I'd like to talk a bit about high-speed rail right here in 
Florida. I've been a frequent visitor to this state for many, 
many, many decades, going back to when I was knee high. And I 
believe that Florida is one of the states with the greatest 
potential to cost effectively reshape its transportation system 
through improved public transportation. I'd say that today a 
great deal of this potential has yet been realized, but Freds 
decision to allocate significant resources to high-speed rail 
here reflects our view that Florida now has the will to create 
a high-speed rail system, as evidenced by the States efforts to 
create a comprehensive intermodal transportation network.
    This network now includes traditional intercity passenger 
rail, commuter rail, light rail, buses, airports and roads. And 
a key piece of that network is the development of high- speed 
rail.
    Accordingly, FRA awarded funding for the creation of a 
brand new high-speed rail corridor that will eventually connect 
Tampa Bay, Orlando, Miami, and other communities in Central and 
South Florida.
    This region here is home to more than 10 million people and 
its one of most densely traveled--travel markets in the Nation 
and so the potential here is so incredibly strong. And its 
strain on roadways and airports continues to grow.
    High-speed rail, linked with traditional intercity rail and 
commuter rail, will offer competitive transportation 
alternative for residents and visitors in the state.
    The first phase of this service will connect Orlando to 
Tampa with intermediate service to several of Central Florida's 
major tourist destinations.
    Our investment of over 1 billion dollars, will initiate the 
development of this segment with speeds reaching up to 168 
miles per hour. Trip time between the two cities on the new 
service will be less than one hour, and it will create a 
substantial number of jobs in the state.
    The second phase will connect Orlando to Miami. This line 
will be 220 miles in length and is expected to operate at 
speeds up to 186 miles an hour. Once operational, this service 
will reduce travel time between those two cities to 
approximately two hours, and to me thats incredible.
    You know, I traveled down from Orlando this morning and by 
the time I left my destination at 10:30, you know, hurried to 
the airport, went through all of the gyrations that you have to 
at the airport and then got on the flight to fly down here for 
an hour and 15 minute flight, and then get here, it took almost 
four hours to do, and so with point-to-point service from 
downtown Orlando to downtown Orlando (sic), to be able to 
achieve that in two hours, its incredible.
    At the same time, FRA has funded a number of projects 
around the country that are ready to go. It will substantially 
improve existing passenger rail service.
    We're working to finalize these grants quickly through our 
fast-track program so that construction can start this year.
    And while it took the Federal Government three years to get 
the first dollar out the door when the national highway system 
was being developed, we at FRA did it in three months.
    In short, we're confident that this program will make 
important contributions to America's transportation landscape. 
Florida has the potential of being the model project for the 
nation, provided it can sustain its States commitment.
    We look forward to working with Florida, other states and 
Congress, to help make America's passenger rail system the best 
in the world.
    Thank you.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. Madam Secretary.
    Ms. Kopelousos. Thank you, Mrs. Brown.
    I want to reiterate, just--we appreciate all being here and 
coming to Florida because as you can see, we're excited about 
what we have going on and excited about the future of what 
we're doing. So thank you.
    And I would like to recognize the Chairman of our 
commission, Markos Marchena, who is here today.
    We have an amazing commission that helps support us, and we 
appreciate their continued support of what we're doing and 
really, to help us move forward.
    You know, I don't have to tell you about congestion. We 
spend at least a half a day here in Miami. While we know that 
the interstate system is going to continue to be the work 
force, really, the intermodal connections that we have, moving 
people and freight more efficiently and effectively and 
seamlessly is what we have to work--look to in the future. And 
I think you'll see in Florida, our vision for moving people, 
for passenger rail throughout our state is strong, and you see 
the support that we have. Congresswoman and I saw it as we rode 
the Amtrak train on the FEC corridor this weekend.
    But it doesn't come without a lot of work and I tell you I 
applaud our legislature and our governor for putting in place a 
framework to allow us to move passenger rail forward and high-
speed rail forward in Florida.
    And they called a special session, they delivered and it 
was really, really an amazing time for Florida because its 
allowing us to see our vision come to fruition.
    I wanted to spend a couple moments on commuter rail and the 
Amtrak service that we have.
    Tri-Rail has grown tremendously and we--I've appreciated 
the partnership of the locals on continuing to move that 
forward.
    Sun Rail, without the work of Congresswoman Brown and 
Congressman Mica, we would not be at the place we are today to 
see that project move forward. Its exciting for Central 
Florida. Its needed and its--we're thrilled about it. And then 
in the Tampa Bay area, what they're looking to do and the 
connections they want to make to high-speed rail, thats where 
the real excitement comes and what the communities want to do, 
as they see high-speed rail come to fruition here in Florida.
    And I can't speak enough about our partners at Amtrak, 
because its a continued partnership that we have. Our service 
here has been successful. We would like to see it move forward 
in several different areas. I know the Committee has talked 
about the Sunset service. We do miss it here in Florida, but 
really to put an application together and we want to continue 
to--to work with the administrator here on delivering Amtrak 
service on the FEC line because we think------
    I wish you could have been there with us on Saturday 
because from top to bottom there were a lot of--a lot of people 
and a lot of Floridians who want to see that service come in.
    And now on the high-speed rail, because thats why we're 
here today.
    I have to say it is--we're appreciative of the funds we've 
gotten. We've been working on this corridor for many, many 
years. For 20 years on the corridor from Tampa to Orlando, we 
are preserving the right of way. We have made the interstate 
infrastructure compatible with putting high-speed rail there 
and we're very excited about it.
    We have been working very closely with FRA. They have done, 
in my opinion, yeomans work, for regulatory administration to 
then turn around and distribute grants. I don't envy that. But 
the team has worked very closely with us in trying to walk down 
this path together. Its new. Its different, but its--as we 
talked about earlier at the chamber meeting--its the 
partnerships that are going to help us get us through this. And 
we're--we're very, very excited about it.
    When you look at the connectors, in the Tampa Bay area, 
they're looking at so many different things. They're looking at 
light rail that will then connect from the high-speed rail 
station in downtown to the airport. The connection at the-- at 
the station there in Tampa Bay is really the main terminal for 
the bus station and connecting the heart service there for the 
buses in that area.
    And then you move on to Orlando, and I tell you, the 
leadership in Orlando has been tremendous on what they're-- 
what they're doing, and the relationship with the airport, as 
they have worked on what they see is the vision for that 
station and moving that forward. It is--its going to connect so 
many different things, as well as connect to Sun Rail there.
    And then you look at the--the connectivity at the airport, 
just with the bus system, the LYNX bus system in Orlando, which 
is pretty amazing.
    And you continue to move on through on the I-Drive for the 
convention center stop. You're not only connecting the bus 
service. You're connecting the I-Drive trolley and the 
limousine of bus services that--that currently work today and 
operate from those attractions, the Sea World, the Universal, 
and I-Drive to get to the convention center that exists today 
will be truly advanced.
    And then we have our stop at Disney. Its on Disney property 
and no one does it better than Disney in transporting people.
    Once you get to Disney property, you really don't have to 
leave. So we're excited about that.
    And then when you look at Miami, I hope everyone and I hope 
more Congressional Members get an opportunity to see what we 
have at the Miami Intermodal Center, because it is truly 
amazing, and its a lot of work.
    I look at the airport director, Jose Abreu, who is 
instrumentally getting this done, as well, and you just look at 
how many years its taken us to accomplish, but its those 
partnerships that are going to help us connect this high-speed 
rail system to our communities, and the vision that we have in 
the exciting time.
    So we appreciate you being here, Florida, and we look 
forward to the continued partnership. We are truly lucky to 
have a Florida delegation that supports transportation, and the 
three of you sitting up here from Florida, its with great 
gratitude and honor that I stand here today, because its your 
help, its your work that has enabled us to push forward, so 
thank you.
    Ms. Brown of Florida. Thank you, both of you.
    I have just a couple of quick questions and then I'll pass 
it on to other Members.
    As you know, the State of Florida, Mr. Administrator, has 
one of the highest unemployment rates in the country.
    In your testimony you stated that to ensure that jobs can 
be created in the near future, consistent with the overall 
objective of the Recovery Act, we have also implemented a Fast 
Track program.
    Can you please elaborate on this, and will Florida be the 
recipients of any funds under this program.
    Mr. Szabo. The quick answer--the quick answer to the 
important question for you is, yes.
    Now, I'll get into more--the more lengthy answer.
    The Fast Track program is something that we put together at 
FRA to help prioritize those projects that meet up with the 
priorities of the states that are most ready to move out the 
door most quickly. Its an opportunity to grab that low hanging 
fruit, make sure that our priorities are in line with what the 
states are looking to move out the door quickly.
    We borrowed considerable help at FRA from the Federal 
Transit Administration, Federal Highways Administration, FAA, 
and all of the other modes to make sure that we have the bodies 
in place that we need to quickly roll that 8 billion dollars 
out the door.
    And so we're calling that effort, Fast Track. And we're 
very fortunate that the first 60 million dollars for Florida is 
just within inches of getting out the door. In fact, its very 
possible that we'll be turning that grand award out to this 
Florida DOT for, you know, for their approval perhaps as early 
as this afternoon or tomorrow.
    Ms. Brown of Florida. Oh, that is good news.
    Madam Secretary, I have a question that I think is 
important because there have been discussions in different 
places about the process.
    Can you tell us, for the record, whether or the Federal 
Government was helpful to us in applying for our high-speed 
rail grant and really, in my opinion, if they had not had 
worked with us, we would not have even been eligible to apply.
    Can you respond to that?
    Ms. Kopelousos. Absolutely. And I will tell you that when 
FRA came down originally, it was to Orlando, and I think you 
picked eight or ten, ten communities that they came to visit, 
and Orlando was one of them.
    We had an amazing turnout from all over the State. The 
Miami Chamber brought a group of folks, so it was--it was--it 
was really a statewide listening session, and they were able 
to--we were able to understand where--where the Federal 
Government was going. They were able to listen to us, what our 
concerns were, and really how we wanted to see the program move 
forward.
    So I think from the very beginning they've--they've 
listened to us, and I think throughout this process, its been, 
especially after we awarded just the immediate attention of--of 
the team thats been put in place to work with us, and we've 
appreciated that partnership and------
    Ms. Brown of Florida. Was this the meeting that the 
Secretary attended, or was this another one?
    Ms. Kopelousos. This was a different meeting------
    Ms. Brown of Florida. OK------
    Ms. Kopelousos. --this was a different------
    Ms. Brown of Florida. --so we had more than one meeting, 
yet, you, Mr. Szabo, you were at that------
    Mr. Szabo. Our staff, yeah, FRA staff.
    Ms. Brown of Florida. Yes. So I want to thank publicly, the 
administration for working with Florida.
    And the last question, Madam Secretary, Orlando/Miami 
route, will you state, tell us where is that application as far 
as the planning dollars that we are applying, where are we? And 
the people in this room want to know how close are we to moving 
forward with the Miami/Orlando, least of which I am excited 
about because I think we can do it in an hour and 15 minutes. I 
can get down here any day.
    Ms. Kopelousos. And Congresswoman, we are moving forward 
with it.
    We actually have a consultant on board that will be working 
through the environmental document with us. We've put about 1.3 
billion--million to date on that study to continue to keep that 
moving, and we will continue to apply, up for the planning fund 
in order just to get that--get that piece moving quickly as we 
possibly can, but we are currently, today, working on it.
    Ms. Brown of Florida. One last question, Mr. Szabo.
    I heard some feedback--I won't say criticism--when I travel 
around the country, that we, in the Federal Government, didn't 
put enough dollars as far as planning was concerned.
    How are we correcting that? The planning dollars to------
    Mr. Szabo. Yeah, in the first round there was very, very 
limited dollars for planning that had been allocated by 
Congress, and clearly since this is a new program, you know, so 
many of the states weren't quite prepared, and the level of 
preparation really varied greatly from state to state to state 
to state. And so for this to truly move forward, there is this 
very real need for the states to do significant planning.
    You know, the highway program is so mature that these plans 
are on the shelf, and its, you know, its almost like a 
revolving effort that, as a project gets built, a new one is 
being developed, and we haven't reached the level of maturity 
with the rail program. And so thats what we have to achieve.
    We just announced that another 50 million dollars of 
planning money is available. We put that NOFA, notice of funds 
available, out the end of March. But we need to ensure that as 
we go forward, that we continue to make those very necessary 
planning funds available for the states to develop their 
vision.
    Ms. Brown of Florida. Thank you.
    Mr. Shuster.
    Mr. Shuster. Thank you. Madam Secretary, could you talk a 
little bit about the design to build, operate, maintain 
contract that Florida plans to--to use on the high-speed rail 
project, and is there going to be any private sector money on 
that, and you know, just talk a little bit about why you're 
moving that rail. I'm a big fan of putting everything together 
and moving. It seems to go quicker, and it costs more money.
    If you could talk about some of those things?
    Ms. Kopelousos. Absolutely, and Chairman, I mean, we have 
really worked very hard on--on our working with the private 
sector and our public private partnerships that we've been able 
to accomplish here in Florida.
    So for us, design-build, design-build-operate-maintain, is 
something that we have spent a lot of time on and getting 
comfortable with, because we--we like you, believe thats how we 
can get things moving as quickly as possible.
    We've been working very closely with FRA. What we would 
like to do is get, and with their help, more of the design work 
done pretty quickly, so we can really know what that number is. 
We believe the total the cost of high-speed rail on that first 
segment of our corridor is going to be about 2.5 billion 
dollars.
    And so what we're looking at is getting some more of that 
design work done. We're looking for kind of what we call the 
early works, is starting that design-build-operate-maintain and 
get that moving very quickly.
    We've done an industry forum that we have almost 500 people 
show up from all around the--the world, but also those that are 
looking to invest in--in high-speed rail throughout our 
country, and so we've seen a significant outreach from the 
private sector willing to be a part of that, so we're 
enthusiastic about it. We're very encouraged by those that we 
meet with on a regular basis. I mean, we don't go a week that 
we haven't met with someone from the private sector that wants 
to be a part of this system.
    Mr. Shuster. Do you expect to have private------
    Ms. Kopelousos. Absolutely.
    Mr. Shuster. --funds.
    And on the design-build, do you have estimates on what kind 
of savings you think you'll experience or not, at this point?
    Ms. Kopelousos. We're not--I can't give you a number, but 
we have seen on so many of our projects, I mean, you look at 
our I-75 project, where we did a design-build-finance, we got 
that project done almost a full year ahead of schedule, and it 
came completely within budget and that was a--we did not expect 
the bids to come in as they did, and we got more bang for the 
buck.
    Mr. Shuster. Thats great to hear, and Mr. Szabo, is that 
something the FRE embraces, as we move forward?
    Mr. Szabo. Very much so. Particularly in the case of 
Florida or even in California where you're talking about 
starting from scratch, you know, building dedicated right of 
way for, you know, the true high-speed rail. We think that 
design-build-operate-maintain is the only way to go, certainly 
the most intelligent way to go.
    There is little room for error, and when you're talking 
about that level of speed, that you need the pieces to fit 
together perfectly, and so we think that the DBOM is the 
absolute right way for Florida to go.
    Mr. Shuster. And along the same line, I understand that Mr. 
Colan, from the Greater Miami Chamber of Commerce, will testify 
later that he--he would hope that whoever that-- the bidder 
that gets the Tampa to Orlando line, would either get some sort 
of right of first refusal or other preference, because it would 
seem, I think to Mr. Colan, and to many of us, that if you 
have--if you have somebody building Tampa to Orlando, they 
could move the process along a lot quicker. Is that something 
that you would consider or something that you have considered?
    Mr. Szabo. Well, I don't know, from a grant standpoint, if 
we can give bonus points to that or not, but I would say this; 
that it certainly on the surface sounds to be logical.
    I mean, again, if we want and need all of these pieces to 
fit together perfectly, we're talking about building a line 
from Tampa to Miami that happens to go through Orlando, and so 
I would defer to Florida DOT on that, but certainly the 
synergies would seem to be important.
    Mr. Shuster. But this is something you would consider 
moving forward, if you could figure out a way to do it, because 
it does seem to seem logical. And I say that, and I hear my 
fathers voice in my head saying, you're committing a sin in 
Washington; you're thinking logically.
    So, but thats something I hope we can look at because it 
just seems to make all the sense in the world, that if they're 
building it------
    Mr. Szabo. Well, like I said, clearly, we're viewing this 
as a--a full system, not incremental pieces.
    Mr. Oberstar. Would the gentleman yield?
    Mr. Shuster. Certainly.
    Mr. Oberstar. I, too, read that statement. It sounded very 
good, but in the context of a competitive bid process, it--
you--it seemed to me, difficult to simply upfront state there 
will be a preferential consideration, but the one who has 
already done the work, would seem to be in a preeminent 
position to bid successfully, but the point is well made.
    Mr. Shuster. And if you go to a bidding process where you 
can't guarantee them but you give them some kind of points, as 
the Administrator said, everybody coming to the table is going 
to be very aggressive too--to--because if they know they've got 
a couple of bonus points for already bidding, and coming in the 
right way on the first leg, something we can figure out a way 
about.
    Ms. Brown of Florida. Just, well, if the gentleman will 
yield------
    Mr. Shuster. Sure.
    Ms. Brown of Florida. --because I just want to mention that 
the State is going to make the recommendation. It's not going 
to be the Federal Government and I want to be clear in that 
and, you know, as we develop the process, I know the Federal 
Government is going to come up with guidelines saying that, you 
know, we want the tracks to be able to, you know, you don't 
have to change trains when you go from one area to the another, 
but the State of Florida will be coming with their 
recommendations, and we just will be approving it. We're just a 
partner, but we don't tell the State what to do in this 
process. Lets be clear on that, is that correct?
    Ms. Kopelousos. Yes.
    Ms. Brown of Florida. I believe everybody is saying, yes, 
everybody shaking their head?
    Mr. Szabo. Yes, that is correct. Its a state--state driven 
process------
    Ms. Brown of Florida. Yes.
    Mr. Szabo. --States make the plan. We review and fund their 
plans.
    Ms. Brown of Florida. Same as in Chicago, Illinois, and 
those other states. All right.
    Mr. Shuster. But if you review it, then you can deny it, if 
something's not right.
    Ms. Brown of Florida. If somethings not right, but we don't 
want to be in the posture of telling the states what to do.
    Mr. Mica.
    Mr. Shuster. I'm very much in agreement with Madam 
Chairwoman.
    Mr. Mica. Well, thank you, just to--housekeeping, Mr. 
Szabo. We're still, you know, the discussion we had in Chicago, 
our responsibility to find out how you make your decisions, we 
were not pleased with the information we requested from the 
administration on how the 8 billion dollars was expended and we 
also, on the type of grants Florida had as one of the top ten 
states in unemployment, we get zero funding in that. Mr. 
Oberstar had interceded in Chicago and had pledged to bring the 
parties together so that the minority and the majority would 
get from the administration a full accounting for the 
distribution and criteria in which those funds were disbursed.
    Thats money, and the horse out of the barn, but we still 
have the 2.5 billion award coming up, and where are we on our--
first of all, our meeting? Have you committed to a date?
    Mr. Oberstar. The gentleman yields?
    Mr. Mica. Yes.
    Mr. Oberstar. We talked with the Secretary, the Deputy 
Secretary, and there is a comprehensive chart available with 
1,456 applications submitted for the TIGER Grants and the 259 
applications for high-speed rail, that adds up to about 60,000 
pages of documents, and I'm prepared to sit there and read 
every one of those pages------
    Mr. Mica. Oh, if I understand------
    Mr. Oberstar. If he wants to do that------
    Mr. Mica. You would have the opportunity there to sit 
down------
    Mr. Oberstar. Let me--let me conclude------
    Mr. Mica. --and discuss this, yes. Go right ahead. 
Continue.
    Mr. Oberstar. That the Secretary will make available the 
documentation with one exception of the proprietary information 
submitted by applicants.
    Mr. Mica. I don't think we have any objection on our side 
to that.
    Mr. Oberstar. We can arrange time to be together.
    Mr. Mica. All right, and we do want to proceed. I'm not 
happy with some of the--of the distribution thats been done 
today, as you well know.
    When do you expect--whats the schedule for the distribution 
of the 2.5 billion, because I don't want to be discussing while 
we see another 2.5 billion of decision-making behind closed 
doors and without Congressional oversight that I think is 
required?
    Mr. Szabo. Well, certainly, we're committed to continuing 
what we believe is a very open and transparent process and----
--
    Mr. Mica. Have you got a schedule?
    Mr. Szabo. Yeah, yeah. We're looking forward to 
participating in the meeting that the Chairman will call to 
make documents------
    Mr. Mica. But you won't, before that meeting, you're not 
going to pop up with 2.5 billion dollars------
    Mr. Szabo. Well, I think its a matter--well, the 2.5, no. 
We will have a notice of funds available on the 2.5 coming out 
in about the next--about the next 30 days or so because the 
intent is to ensure that those are distributed before the close 
of the fiscal year, which is September 30th, so yeah, we do 
have schedule on that and I don't think------
    Mr. Mica. I'm hoping a meeting can take place in advance of 
that. So we do need to schedule that.
    Mr. Szabo. We're happy to make ourselves available at the 
Chairmans request.
    Mr. Mica. Very good.
    One of the problems, Mr. Oberstar, too, is, you know, when 
we did the extension of the highway bill through December, you 
had obtained a commitment from both the Speaker and Mr. Reid, 
Senator Reid, on the distribution of those funds, and once 
again Florida gets screwed, pardon the French. Four states get 
58 percent of the money for projects of national significance, 
rather than distributing those funds on an equitable basis, 
which was part of bipartisan agreement. The administration 
unfortunately went ahead with--ahead with that language that 
was in the bill, and now that--that horse is also out of the 
barn.
    Madam Secretary, here in Florida, the legislature is 
concluding its work. What--I just had some comments with folks 
that theres going to be a cut in transportation funding.
    What are you looking at here in Florida; could you give the 
Committee those figures?
    Ms. Kopelousos. Absolutely.
    Congressman, we finished the legislative session. The 
budget was approved. They did a sweep of our trust fund of 
about 160 million in cash.
    Mr. Mica. So you're short here?
    Ms. Kopelousos. So we--we will look at--and remember we're 
a commitment based cash flow budget, so------
    Mr. Mica. Will any of that affect any of the projects 
that--that you have--currently have out for bid?
    Ms. Kopelousos. Not ones we have out to bid, but ones that 
we possibly will look at------
    Mr. Mica. You'll have to cut that.
    Well, you know, again, on the 8 billion dollars, I have 
questions of how that was disbursed.
    The TIGER grants were specifically for areas--states with 
high unemployment, and far too much money went to some states 
that have less than half the unemployment that we have in the 
State of Florida. We got shafted on that.
    We got shafted on this latest distribution of the 
transportation bill through the end of this year. Again, thats 
the latest information that I have, that they have released 
that, and then now I have the 2.5 billion that--and all I think 
our State is asking for is a fair and equitable shot.
    Mr. Szabo, you had said that the rail was going to travel 
from Miami to Orlando and achieve a 186 miles an hour. Is that 
on average or is that the top speed?
    Mr. Szabo. From what I understand from Florida's plan that 
they've been putting together, thats top-end speed.
    Mr. Mica. And average speed?
    Mr. Szabo. I don't have that readily available.
    Mr. Mica. Secretary, do you know?
    Ms. Kopelousos. Part of it will depend on what corridor is 
chosen, at the end of the day, I mean, even on the Orlando to 
Tampa------
    Mr. Mica. That does sound like high speed, I mean, and in 
the bill, we set the PRIA that we all agreed on, we said 110, 
which is actually low by international standards, but Mr. 
Szabo, I heard you say that the speed from--it would take one 
hour from Orlando to Tampa, which is 65 miles, so that makes an 
average speed of 65 miles an hour.
    Does that constitute high-speed either by the legal 
definition of PRIA or by any possible distortion of fact?
    Mr. Szabo. Well, I think we believe the plan that Florida 
has created for itself is genuine high-speed rail and that is--
----
    Mr. Mica. At 65 miles an hour?
    Mr. Szabo. Yeah, that segment, that segment, but I mean, 
again, you're talking about your average speed------
    Mr. Mica. The only other place we have to go is------
    Mr. Szabo. --its--its going to, you know, top out at I 
believe 168 miles an hour, and you know, they intend to achieve 
it in less than an hour.
    But again, its up to the State to prepare their vision, and 
then we're the funding partner------
    Mr. Mica. Well, just--just again, I'm just using what you 
testified. The only other leg I know is from Tampa to the 
airport. And finally, my final question is, where are we-- the 
Northeast Corridor, we have got to build high-speed rail or 
constructed--I heard you've got a new plan cooking instead of 
giving Amtrak, our Soviet style train system, the continued 
sole franchise in that corridor, do you have a time frame for 
revealing an administration plan for a true high- speed system 
in that corridor?
    Mr. Szabo. Again, let me remind you that the high-speed 
vision is developed by Congress, by your legislation sets this 
up as a State driven process and so again, its the states that 
prepare their vision for high-speed rail and for intercity 
passenger rail, and then we review their vision and if 
appropriate, fund their vision.
    Mr. Mica. Section 502.
    Mr. Szabo. Yeah, what we have done, what we have done is 
form the Northeast Corridor Planning Commission, the 
commission. The Secretary sent those letters out to those 
governors to appoint their designated commission, we're going 
to get them, and set them down, and start doing the very 
important planning thats going be necessary to take the 
corridor to the next level.
    Theres some significant challenges that the states are 
going to have to address in there. Its going to involve the 
potential taking of land, and so theres the environmental plan 
thats going to have to be done, and these are going to have to 
be local decisions to make sure that the states are comfortable 
with whats going to be necessary to bring the corridor to the 
next level.
    Mr. Mica. I have additional questions, I submit to the 
Chairwoman.
    Ms. Brown of Florida. Thank you, and I'm going to turn it 
over to Mr. Oberstar, but I want to point out that we started 
our tour in upstate New York, for a purpose, and the State came 
and presented their plan and what they visualized for their 
region, and one of the things that they were very pleased with, 
the starting of the system, that they could break up some of 
that congestion where freight and passenger intersect, so that 
they could have a faster speed.
    And so one of the things that we as Members must remember, 
that we are partners, and we are working with the State, and 
the first stop on our whistle stop tour that we had, Mr. Mica, 
you didn't attend, but the first stop was in New York, because 
I wanted to start there, where a rail started in 1835, the 
first successful rail in the country, and of course, we 
started--we had cabooses and now, they don't use cabooses 
anymore, and we're last, and so I'm excited about the 
opportunity of partnering with the State and moving our country 
forward.
    With that I will turn it over to Mr. Oberstar.
    Mr. Oberstar. Thank you, Madam Chair, and thank you to the 
panel for being here today.
    In response to Mr. Mica's question, and I share the-- not 
only share the frustration, I am the principal being frustrated 
by the Senate's manipulation of the extension of safety.
    I allowed the package, within which it was included to move 
forward with a written commitment by the Majority Leader of the 
U.S. Senate to me and to Speaker Pelosi--yes, and Ms. Brown is 
choking out there--she said, don't trust the Senate, and I said 
we have it in writing, and Senator Reid is an honorable man.
    But the agreement we had the language that was--that the 
House passed, is agreed to by Senator Reid for the distribution 
of 928 million dollars in discretionary funds, according to 
formula and not according to a rip-off by the U.S. Senate, but 
it was first held by a republican senator and then when that 
hold was released, more recently its been held up by a 
democratic senator, and now I'll say, Mr. Mica, that I have an 
agreement with Senator Reid and with the Speaker on another 
vehicle that I'll not reveal at this point, because I don't 
want to give the Senate something to screw up again. So we'll--
we'll--we will proceed with it. Further, the allocations to the 
states have not been finalized. So irreparable damage has not 
yet been done.
    I yield to the gentleman.
    Mr. Mica. Well, I just was told that the allocations were 
moving forward and if you can assure me, I mean, my concern is 
my State again would be zeroed out of those funds, and I just 
had our Secretary here with what, 160 million shortfall and one 
of the top ten high--highest unemployment in the Nation and you 
get shafted once, you get shafted twice, we--we need jobs, and 
I need that assistance now.
    So you committed, your word is your bond. I saw the letter 
that you obtained from the Speaker and Mr. Reid, and I'll do 
anything I can to make certain that we fairly treat that. I 
don't know where your state was, if Pennsylvania-- we should be 
equitable, and we discussed this, and that was our intent was 
to have a fair and equitable distribution.
    Mr. Oberstar. We--we passed the bill with the regular 
order, the Senate did not, and your other question is, I could 
just as well of sat back and said oh, too bad, the government 
picks up extra money with this formula, but it's not right, 
it's not right to do it that way, and we're not going to let 
the Senate off the hook, and we're going to get this done and 
talk with DOT about the distribution of funds, and we're going 
to--we're going to get this done before they have to by law 
finalize any allocations.
    Mr. Szabo, I understand you have------
    Ms. Brown of Florida. Yes, yes------
    Mr. Oberstar. I just want to say that I think you laid out 
very well the process followed, and we look forward to 
reviewing the documentation for the--on which the decisions 
were made for distribution of funds.
    Mr. Szabo. Looking forward to the meeting.
    Ms. Brown of Florida. Mr. Szabo, we want to give you a 
chance to close anything you would like to say before you 
leave, and I want to thank you again for adjusting your 
schedule, and I know that you're going to Orlando to meet with 
the people with freight rail which is very important.
    Mr. Szabo. I think only to close, that, you know, going 
back to the comments I opened up with, that this is an 
incredibly exciting time here in Florida. That there is truly 
within Florida's grasp, the opportunity to make something 
incredibly exciting happen.
    The markets from Tampa to Miami through Orlando are 
incredibly strong. Its a great vision.
    The little line that you were talking about, actually long 
line, from Jacksonville on down to Miami, incredibly important.
    These are good markets and I just think its an exciting 
time for rail in Florida.
    Ms. Brown of Florida. Thank you, and I just want you to 
know, as I traveled around the country, the major complaint I 
hear is that everybody wants more money. You need to know, 
Florida wants all of that 8 billion dollars. There's nothing 
you could have done could satisfy us, and we want all the TIGER 
grant money, too.
    So thank you very much.
    Mr. Szabo. Thank you.
    Ms. Brown of Florida. We're going to excuse you------
    Yes, sir?
    Mr. Oberstar. Madam Chair--yes, excuse me, Mr. Szabo, but I 
have Ms. Kopelousos------
    Ms. Brown of Florida. Yes.
    Mr. Oberstar. Just one last--my horseback estimate of the 
cost of I-95 from Sanford/Orlando to Miami is in the range of 
two and half billion dollars, original cost of construction and 
roughly a third of the states VMTs, which would come to about 
60 billion.
    That's a heavily traveled corridor. Here would be a great 
relief of traffic and if we could complete this high- speed 
rail, its cost would be somewhat comparable to that of the 
Interstate, although perhaps less. Have you calculated those 
figures?
    Ms. Kopelousos. We've looked at the original figures, gosh, 
back when we--we started this process years ago. We were 
looking at about two to three between Orlando and Tampa and 
about eight to get to Miami, and I think, you know, you look at 
the current costs that we're seeing know, I mean our bids are 
coming in, what, average of 20 percent below------
    Mr. Oberstar. Right.
    Ms. Kopelousos. --our estimate, so I think you're looking 
at an 8 billion range.
    Mr. Oberstar. For the------
    Ms. Kopelousos. Part of that is------
    Mr. Oberstar. For the completed project, that's Orlando, 
Tampa, Miami?
    Ms. Kopelousos. Just that Orlando to Miami piece.
    Mr. Oberstar. Miami.
    Ms. Kopelousos. And that was very preliminary. I mean, that 
was done with not a lot of environmental work done, but we're 
in the process. We've started that, and so as you're moving 
forward, you would see some better numbers.
    Mr. Oberstar. How much cooperation do you need? That is, 
what arrangements do you need to work out freight rails in that 
corridor?
    Ms. Kopelousos. Well, in some of it we're looking at, would 
be just building new rail completely. So some of the corridors 
that we're looking at would be around where the Turnpike goes 
currently and then along where I-95 goes today. So those are 
really the two focused corridors that we're looking at. So some 
of it would be absolutely new rail.
    I mean, you can see our relationship with the freight rail 
operators in this state is pretty awesome. We've been working 
very closely with them because so many of our communities are 
looking at commuter rail and using those current ones, as well.
    Mr. Oberstar. It's unfortunate that we had the setback in 
Florida several years ago. Mr. Mica, Ms. Brown, and I traveled 
to France with the FOX Project, as it was called at the time, 
and saw the great success of the TGV from Paris to Toulouse. 
The result, we had a good visit to a vineyard.
    Ms. Brown of Florida. Yes.
    Mr. Oberstar. But they didn't buy the train for Florida, 
and so now we have to work on reestablishing that, and I will 
be an advocate for you with Ms. Brown, and your entire Florida 
delegation, including Mr. Mica, and Mr. Diaz-Balart, a very 
productive Member of our Committee and a great person to work 
with.
    Ms. Brown of Florida. Madam Secretary, if you like, you can 
stay up front with the next panel.
    Let me just say one other thing. As we develop a system, as 
you and I experienced, it is important that it has to be a 
serious separation from passenger, as we do the high speed 
corridor; because we saw, just in our little tour, people 
playing on the tracks. I mean, it has to be a sterile 
environment, and I know that the engineers, as they plan, are 
keeping this in mind because this is just crucial.
    Ms. Kopelousos. Safety is always our number one priority.
    Ms. Brown of Florida. Safety has to be our number one 
priority.
    Mr. Diaz-Balart. Thank you, Madam Chair. Before anything 
else, I'd like to introduce somebody whos in the audience, who 
is a great leader of our community in his own right, but hes 
now the, I believe he is the state director for Senator Empires 
office, Carlos Prubello. Thank you for being here, sir. A 
little while ago, we were speaking about your--your boss, 
before we came up here.
    First a couple of comments and then a couple questions.
    I think the issue and the Chairman has been--is very 
generous with me and this Committee and has allowed me to vent 
on this whole TIGER grants issue. The fact that there was money 
that was allocated, stimulus money for low unemployment states, 
and Florida got zero, well, frankly there is no possible 
explanation of--no possible excuse. I don't care what anybody 
tells us, when states that have much lower unemployment got 
money and Florida got zero, and again, I know the Chairmans 
heard me say that time and time again, but I just thought its 
worth mentioning again, because there is no excuse.
    Mr. Oberstar. If the gentleman would yield, I'm an equal 
opportunity complainer. We can get it from here to Minnesota.
    Mr. Diaz-Balart. Thats correct. Thats correct, Mr. 
Chairman, and one of the things that we always talk about with 
great pride is this is Committee that is not partisan, but we 
deal with the issues based on their merits.
    Briefly, you know, Mr. Mica talked about high-speed rail 
between Orlando and Tampa being about an hour. You can drive 
almost in that distance. It doesn't seem to me that you can get 
people out of their cars.
    Mr. Szabo mentioned, you know, today, about having to go 
the airport; taking off his shoes; going through all that 
process; and therefore it took much longer than the flight 
itself.
    Well, if you can get in the car and go door-to-door in an 
hour and 15 minutes and you have to go the train station to go 
to Orlando from Tampa, its going to take you more than that, 
its frankly, my fear that its not going to succeed, and I hope 
you're looking at that. Because, you know, thats going to be 
the first one, I guess, and that its not succeeding, it will 
pretty well kill the possibility of having the southern leg, 
and I just hope thats something you look it.
    All logic will tell you, not having to be an expert, that 
thats not going to work, if in fact its going to take an hour 
from Orlando to Tampa.
    In addition to talking about passenger rail, though, since 
we are here in South Florida, Madam Chairwoman, Mr. Chairman, 
and Ranking Members, I do want to talk a little bit about 
freight rail.
    The Port of Miami is telling you that theres basically 
three issues that they need, and thats dredging, which is 
happening. Its building the port tunnel, which is moving 
forward--thank you for your leadership--and then building this 
new dock rail to build a distribution center to get tuff in and 
out of the port, and obviously those are three components that 
they're complimentary and that all have to take place.
    The main argument that the rail part is probably more 
urgent and even the tunnel, as far as actual timing, and I 
don't necessarily need to get details from you now, but I do 
want to make sure that we're on--that we continue to talk as we 
have about that issue, because to me, without that, we're going 
to be facing some major crunch time.
    We were just now, when Mr. Mica and I and Mr. Shuster were 
walking here to the college, we ran into a caravan, what seemed 
like a caravan, which I'm used to here in Miami. We've seen it, 
and the Chairwoman knows about this, but Mr. Chairman, we ran 
into a caravan of probably, I don't know, was it eight trucks 
struck in traffic, one after another, trying to get across 
Biscayne Boulevard? So clearly that issue needs to be 
addressed, and we need to continue to talk about that, make 
sure that thats a--its as much of a priority to the State as it 
should be and if you have comments on that, if you can hold 
that.
    And lastly, I did want to talk about the issue of the 25--
25th Street viaduct, and we were hoping that we would have, 
already, a transportation bill. And despite the best efforts of 
the Chairman and I've said this multiple times, the Chairman 
has been the most vocal, has been willing to stand up to 
whoever he needs to stand up with, and he has the total support 
of the Committee, regardless of any differences they're going 
to have on anything, including any differences on the 
Committee, but despite his best efforts, it looks like the 
administration doesn't want to have a reauthorization bill.
    Having said that, knowing that, if you could give us an 
update about also that project, where we are and what are you 
looking at.
    Thank you.
    Ms. Kopelousos. Well, and Congressman, you know, with this 
a priority for this community, I think we--we laughed and we 
talked about Miamis project, that it was VIT, the viaduct, the 
interchange and the tunnel, and We've gotten two of the three 
and half of the viaduct funded in the program.
    Currently, right now in our five-year program, it is in the 
fifth year to complete that project.
    As you know, our goal is always to get it done sooner 
rather than later. Its an important project. Its an important 
project for the airport. Its an important project for the 
community. We all value that, understand that, and we're just 
going to continue to work with the funding that we have to try 
to move that forward as quickly as we possibly can.
    Mr. Diaz-Balart. Talking about the rail issue, freight rail 
trains, if you also could.
    Ms. Kopelousos. Right, absolutely, and I know that the 
port, you know, under Bill Johnson has--has been moving 
mountains there, and I think you have to look at their 
discussions with the Florida East Coast Rail Line and trying to 
build a--kind of an inland port type proposal together.
    They've been working closely, and we will continue to 
partner with them in all different ways to try to--to get their 
needs met, because it is, I mean, when you look at how much the 
port could grow with the tunnel, with the appropriate rail 
connector to the port, and then I think you will see it 
continue to flourish.
    Mr. Diaz-Balart. Thank you, Madam Kopelousos.
    Ms. Kopelousos. Thank you.
    Ms. Brown of Florida. Yes, sir.
    Ms. Brown of Florida. We're going to go to Panel Two, 
because we have a couple of people with planes to catch, so 
will Panel Two please come up?
    Thank you very much.
    I would like to welcome the second panel, and I would-- we 
are going to start with Mr. Joseph Giuletti, Executive Director 
of Tri-Rail, Commuter Rail Authority, and I understand that a 
lot of the Members rode it today, and staff, and of course I 
did it less than, what, two months ago. So I'm glad you're 
moving forward and with your leadership.
    Mr. Drew Galloway, Amtrak Assistant Vice President of 
Policy and Development, welcome.
    Also Mr. Bruce Colan, Chairman of the Greater Miami Chamber 
of Commerce, and thank you very much for hosting us today for 
lunch.
    Mrs. Ana Sotorrio, Associate Director of Government Affairs 
for the Miami International Airport.
    And Mr. Cesar Calvet, Chairman of the Board of the Orlando 
International Airport, welcome.
    I understand you all had chaos today, two and half hour 
wait, yesterday, yeah--yesterday, because of the--OK.
    And Andre Trujillo, Florida State Legislative director of 
the United Transportation Union, and thank you for joining us 
on the trip Saturday.
    Mr. Trujillo. I enjoyed it.
    Ms. Brown of Florida. And finally Terry Dale, president and 
CEO of--yes, sir, welcome--of the Cruise Line International 
Association, and I know you in Washington, now you look un--
familiar here.
    Let me remind the witnesses that under our Committee rules, 
oral statement must be limited to five minutes, but the entire 
statement will appear in the record.
    Mr. Giuletti.

TESTIMONY OF JOSEPH J. GIULETTI, EXECUTIVE DIRECTOR, TRI-COUNTY 
 COMMUTER RAIL AUTHORITY (TRI-RAIL); DREW GALLOWAY, ASSISTANT 
VICE PRESIDENT - POLICY AND DEVELOPMENT EAST, NATIONAL RAILROAD 
PASSENGER CORPORATION (AMTRAK); BRUCE JAY COLAN, CHAIR, GREATER 
 MIAMI CHAMBER OF COMMERCE; ANA SOTORRIO, ASSOCIATE DIRECTOR, 
   GOVERNMENTAL AFFAIRS, MIAMI INTERNATIONAL AIRPORT; ANDRE 
     TRUJILLO, FLORIDA STATE LEGISLATIVE DIRECTOR, UNITED 
  TRANSPORTATION UNION; CESAR CALVET, CHAIRMAN OF THE BOARD, 
ORLANDO INTERNATIONAL AIRPORT; AND TERRY L. DALE, CRUISE LINES 
                   INTERNATIONAL ASSOCIATION

    Mr. Giuletti. Good morning, Madam Chair Brown, Ranking----
--
    Ms. Brown of Florida. Afternoon, now.
    Mr. Giuletti. Oh. I'm sorry, thats correct.
    Good afternoon, Madam Chair Brown, Ranking Members, both 
Committee Chair Oberstar, Congressman Mica, Congressman Diaz- 
Balart, Members of the Transportation and Infrastructure 
Committee, Subcommittee on Railroads, Pipelines and Hazardous 
Materials.
    On behalf of South Florida Regional Transportation 
Authority, I truly appreciate an opportunity to share my 
thoughts with you.
    I want to thank several of you back down here, including 
Congressman Oberstar, who came down and rode the system a while 
back before Congresswoman Brown had, and we had an enjoyable 
ride back then going across the system, and Congressman Mica 
who has been intimately involved with our system through the 
legislative sessions.
    I appreciate all the support that We've had, and the good 
news is that we have a system that continues to be able to 
provide the--the service that we committed to the Federal 
Government. I truly need to thank the entire South Florida 
delegation or the Florida delegation for the support that 
they've given to make sure that that happens.
    This topic is--of the hearing is timing. The SFRTA and the 
State of Florida have significant experience over the past 
twenty years operating rail service through our agency and in 
concert with Amtrak, and I believe theres some important 
lessons that can be gleaned from our experience that may help 
guide Federal policy and planning as it relates to the 
introduction of the high-speed rail and also for the 
authorization of the highway and transit program.
    Those of you that don't know, Tri-Rail is the first new 
start-up in 25 years of commuter rail system.
    Florida led the way at that time to look into alternative 
ways of dealing with traffic mitigation and through its design, 
to be responsible for transportation planning, coordination, 
design and operation of the commuter rail service for the 5.5 
million residents of Dade, Broward, Palm Beach Counties.
    We also have strategic partnerships with the Florida 
Department of Transportation and the other area transit 
providers that support an extensive rapid rail, commuter rail, 
and bus network.
    The SFRTA service territory covers 75 miles of rail-line. 
We are currently down to about 13,000 riders daily, which is 
still over our 2008 number. We suffered a little bit when 
people lost their jobs in the area, and We've also heard an 
awful lot about whats going on with unemployment here.
    We still carry--have carry estimates for future ridership 
growth that exceed three percent annually. With the support 
from the South Florida Congressional Delegation, the 
legislation in Florida approved the allocation of gas tax 
revenues totaling 13 to 15 million annual for SFRTA.
    And with respect to the future, the SFRTA will still need 
to fund--address the 500 million in near-term capital needs for 
Tri-Rail and the 10 billion that We've identified for this 
area.
    Our intercity transit service, both bus and rail, will have 
to be integrated into the high-speed rail and serve network in 
order to ensure that the passengers have a seamless experience.
    I would just like you to know that Tri-Rail currently has a 
high number of multimodal connections and is one of our systems 
greatest strength and critical success. Tri-Rail is a viable 
option for those traveling to and from South Florida to the 
connections at the regions three international airports, OK, 
and to give you a sense of the bus operations, Tri- Rails 18 
stations passengers are currently able to transfer to 21 Miami-
Dade transit buses, 20 Broward transit buses, 22 Palm Tran bus 
routes, 12 SFRTA operated shuttles, seven city operated 
shuttles. And our excitement about the connectivity will 
improve when the Miami Intermodal Center currently under 
construction adjacent to the Miami International airport is 
completed. Tri-Rail will include the new Miami central station, 
which will connect directly to Tri-Rail, Amtrak and the new 
extension of Metro-Rail service.
    So I'm not going to go further into my--my discussion at 
this point, other than to say we also connect with Greyhound, 
and we were instrumental in working with the Florida DOT in 
identifying, just here at the MIC, the fact that if we gave up 
our air rights, it would make it a connectivity between the 
heavy rail, the introduction of Amtrak, high-speed coming in.
    You'll be able to get off of our planes here in Miami and 
be able to not only get on intercity or high-speed rail, 
commuter set rail, the heavy rail system here, all the bus 
systems, and Greyhound, which is, we believe the model that 
needs to be looked at going forward.
    And I thank you for allowing me this time.
    Ms. Brown of Florida. Mr. Galloway.
    Mr. Galloway. Good afternoon, and thank you, Madam Chair, 
and Chairman Oberstar and Ranking Members Shuster and Mica.
    We at Amtrak appreciate very much this opportunity to talk 
about intermodal connections in Florida.
    For the last 35 years, Amtrak has been the operator of the 
Northeast Corridor, and I'll cite that when talking about this 
because I think it has a lot of relevance in the emergence of 
intermodal connections and intermodal activity in the State of 
Florida.
    I won't repeat what Joe has talked about, but I will echo 
it. It is a microcosm of what is occurring on a broader region.
    The Northeast Corridor has 457 miles, is very comparable to 
Miami to Jacksonville, a little less, but it's in that same 
general region.
    The Northeast Corridor sees, today, 3,500 daily trains, 
with 260 million travelers a year on it. It only works with the 
right type of intermodal connections. It only works when the 
facilities are designed for convenience and for easy transfers 
and information and smart design in those facilities. It only 
works when there's an infrastructure in place that provides a 
reliable service that provides the type of service as needed.
    This is a corridor that hosts 150-mile-an-hour Acela 
trains, commuter trains and up to 60 freight trains every day. 
It requires a careful integration of that service to make it 
work.
    In terms of intermodal connections, because of these other 
factors that I just cited, only when you identify and build and 
integrate in those facilities and those systems, do the 
passengers have enough confidence to take advantage of the 
system.
    If passengers have enough confidence to travel from their 
point of origin to the point of destination, it may involve a 
train; it may involve a train with local transit, be it bus, or 
subway, or Metro-Rail. It may involve transfers to and from 
airplanes. And the Northeast Corridor has three active transfer 
locations right now between airports.
    It is, on a region-wide basis, what we see emerging in many 
other parts of the country. I would cite California, the 
Midwest, many areas, have identified these facts, identified 
these values and are moving towards it. And it works.
    When you look at the right type of intercity high-speed 
service versus airline short haulers, Philadelphia to 
Washington captures 88 percent of the market today. Albany to 
New York, it's 92 percent. New York to Washington is 63 
percent. So there is evidence in building the service and 
building facilities, that rail can take advantage of 
intermodality and intergration.
    USDOT just concluded a study citing one of the values of 
the Northeast Corridor is this level of intermodality that 
exists, and every station in Maryland has some level of 
intermodalism; every station in Rhode Island; and virtually 
every one in Connecticut; I can go up and down the list.
    I'm using this to cite examples, because we think part of 
the reason that there's 260 million trips a year--it's 
forecasted to grow to 415 million over the next 25 years--is 
because of this integrated system and planning and making sure 
of that attention to detail, that it really does work in that 
context.
    Because everybody else has talked about the Miami 
Intermodal Center, and there's a piece of me in the project, as 
well. It is the example that we all look towards as an 
intermodal facility, and Amtrak is very much excited and 
interested in joining that. That is not only because of the 
connections that Tri- Rail and Metro-Dade offer into the 
airport, but also because of the close proximity to the cruise 
ships. And because of the ability to look beyond simply 
journey-to-work type of operations and to look at it from a 
full economic development perspective, it is very exciting.
    Also, when looking at land use planning and livable 
communities, the right type of intermodal facilities absolutely 
come into play.
    We're excited by what Florida is doing with the high- speed 
program, and we urge them very much to look at the intermodal 
facilities at Tampa and Orlando, whether it's in the Sand Lake 
Road area or closer to downtown, or the attractions area. All 
of those features really come into play in creating a region-
wide network of intermodal services, and that creates 
opportunities for travel that didn't exist just a few short 
years ago. And I'll conclude my remarks, and thank you.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. Mr. Colan.
    Mr. Colan. Good afternoon, Chairwoman Brown, Chairman 
Oberstar, Ranking Members Shuster and Mica.
    I'm Bruce Colan, chairman of the Greater Miami Chamber of 
Commerce. On behalf of the Chamber and our members, welcome to 
Miami.
    Prior to 2009, the PD&E and the final engineering work for 
the Tampa/Orlando leg of Florida's designated high-speed rail 
corridors had been completed and the majority of the right of 
way acquired, while nothing had been done on the Orlando/Miami 
leg.
    The Tampa/Orlando leg was as ready to build, indeed, more 
ready to build than any other high-speed rail corridor in the 
United States.
    Accordingly, Florida's applications to USDOT were for two 
and a half billion dollars to build a Tampa/Orlando leg, and 30 
million dollars for the initial PD&E for the Orlando/Miami leg.
    Notwithstanding the critics of proceeding first with the 
Tampa/Orlando leg, because that leg is ready to build, it can 
and should be the first operational high-speed rail segment in 
the U.S. When joined by an operational Orlando/Miami segment 
with its substantial additional revenue, the complete Florida 
high-speed rail system will be self-sustaining and a model for 
the country, for not only high-speed rail, but also intermodal 
connectivity. Indeed the MIC, now under construction, will be 
the Miami terminus of high-speed rail.
    Subsequent to the award of the initial billion and a 
quarter for the Tampa/Orlando leg, FDOT announced it will 
proceed with the DBOM approach for what is estimated to be in 
total a two and a half billion dollar project. It is our 
understanding that the administration is prepared to provide 
additional monies for this leg, up to a total of 80 percent. 
There is an expectation of private sector funding for the 
balance.
    However, because there is no existing U.S. High-speed rail 
system to provide reasonable projections, simply pledging 
fairbox receipts may not be enough to secure material amounts 
of private financing. Thus, at least for the first system or 
two in the U.S., government guarantees may be necessary to 
secure a material portion of the funding needed over and above 
the initial governmental grants and awards.
    As the Orlando/Miami leg has a substantial-- materially 
higher ridership projections which will provide significantly 
more revenue and make the high-speed rail system in Florida 
profitable, the private sector would like some assurance that 
the Orlando/Miami leg will go forward as soon as possible and 
that the winning bidder for the Tampa/Orlando leg will have 
either a right of first refusal or other preference for the 
Orlando/Miami leg.
    Indeed, we believe that the entire Tampa/Orlando/Miami 
route should conceptually be developed as one system.
    As the Orlando/Miami leg, although FDOT has announced that 
a contractor has been selected to perform the preliminary 
design and environmental work, that selection is contingent 
upon funding of the 30 million dollar cost, whether by FDOT or 
by USDOT.
    To date, no firm commitments have been made over than the 
1.3 million dollars from the State referred to by Secretary 
Kopelousos. Until we get past this situation and meaningful 
government commitments are made toward the funding of the 
Orlando/Miami leg, commitments which allay concerns about the 
prospects for construction of that leg being delayed 
indefinitely, it may be difficult to obtain favorable bids for 
the Tampa/Orlando leg.
    We must overcome these impediments. Because the Tampa/
Orlando leg is ready to go with the initial funding allocated, 
the entire Florida high-speed rail system can and should be the 
first system in the U.S. to be completed, and as a result, 
become the high-speed rail template for our country.
    The development of high-speed rail is a once-in-a- 
generation leadership opportunity to bring the United States up 
to speed with Europe and Asia. Aggressively moving forward with 
high-speed rail will bring more than 10,000 new jobs to 
Florida.
    Just as construction of the interstate highway system 
helped transform Florida and our country over the past 50 
years, high-speed rail can be the engine that drives 
transformative economic growth for generations to come.
    The Greater Miami Chamber of Commerce pledges to you, that 
we, together with our sister business organizations in South 
Florida, as well as in the Tampa Bay and Central Florida areas 
and at the state level, will work on a continuing basis to 
support the development of the entire Florida high-speed rail 
system.
    Thank you.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. And I just want you to know we're not 
short of applicants. We had over 22 different departments that 
were interested in entering in the agreements with us, so there 
is plenty of interest in that first leg.
    In fact, there was so many that I couldn't invite them to 
come to the hearing.
    Mr. Colan. The issue, I believe, will be financing as We've 
had discussions with financial parties, and thats where the 
problem comes in.
    Ms. Brown of Florida. Sir, I want you to know, not only do 
they want to enter, they also want to come with their 
financing. It is a piece that they are very excited about.
    Ms. Brown of Florida. Yes, ma'am.
    Ms. Sotorrio. Thank you.
    Good afternoon, Chairwoman Brown, Chairman Oberstar, Ranker 
Members Shuster, and of course our own Representative Mario 
Diaz-Balart.
    I bring you greetings from aviation director Jose Abreu, 
who regrets not being able to join you this afternoon but looks 
forward to hosting you tomorrow at Miami International Airport.
    I appreciate the opportunity to tell you about the great 
intermodal connections that are being developed in Miami-Dade 
County and the strong partnership among the local, state, and 
Federal officials that are making them possible.
    Here in Miami-Dade County we were talking about intermodal 
long before it became fashionable. MIA is the nations leading 
international cargo airport and the second ranked international 
passenger airport. We just surpassed LAX for that number two 
spot.
    It is the largest gateway to the Latin American/Caribbean 
region, with more than 1100 weekly departures to 67 
destinations in the region.
    The airport is also Florida's busiest and its premiere 
international gateway, handling 70 percent of the states 
traffic from abroad.
    MIA is also the primary driver of Florida's economy here in 
South Florida, generating more than 27 billion annually in 
business revenue and more than 282,000 jobs, equating to one of 
every four jobs in Miami-Dade County.
    To rank competitive and the meet growing demand, the Miami-
Dade Aviation Department is investing 6.3 billion to modernize 
and expand its infrastructure, an 8600 foot runway opened in 
September of 03, and it has increased our air field capacity by 
25 percent.
    The new south terminal is now open and adds 1.7 million 
square feet to MIA.
    The north terminal will encompass more than 3.2 million 
square feet upon its phase completion in 2011. Most of you 
probably got a glance of it upon your arrival here in Miami. At 
that point, the terminals will have a total of 130 gates.
    MIAs cargo facility development program began in 1992 and 
is now complete, and it has more than 2.7 million square feet 
and 17 cargo buildings.
    So with the two legs of the three-legged capacity stool 
well underway, the airfield and the terminal, we focused on the 
third leg, ground access.
    We knew the airport would choke on its own traffic without 
improvement to the expressways and surrounding roadway. The 
main challenge, surprise, surprise, has been to identify 
funding for these improvements. As you know, Federal law 
prohibits the use of airport revenues off airport property. So 
we turn to our Federal, state and local partners.
    The cooperation and coordinated intermodal improvements 
that have resulted from this partnership is unprecedented and a 
model for the nation. This is most evident in the Miami 
Intermodal Center, which you will visit and hear more about 
tomorrow.
    Suffice it to say, in that regard, that the MIC has 
simply--the MIC program which it also encompasses the roadway 
improvements, it has decongested the roadways around the 
airport, provided efficient ingress and egress that did not 
exist before, and we're very much looking forward to the, you 
know, intermodal improvements that are yet to come that we will 
view tomorrow.
    Our contribution to the MIC is the MIA mover, which will 
connect the central station, so to speak, and the car rental 
facility to the main airport terminal.
    So the last remaining project is actually at the airports 
front door, and thats Car Central Boulevard, which is the last 
mile between the primary access roadways and the airport. If 
not improved, this would have been a choke point that would 
have negated all of the other improvements that have been made.
    Again, our partners at FDOT recognized the significance of 
this project and committed 50 percent of the costs. The problem 
was we did not have the local match. MIAs massive 6.3 capital 
program has us financially strapped, and we were in danger of 
losing the state money. Director Abreu turned to the Miami-Dade 
Expressway Authority. To their immense credit, that MDEX board 
and its administration, realizing that this choke point would 
also choke the economy of South Florida, provided the local 
match. The project will soon be underway with an expected 
completion in 2012.
    See, our passengers do not know the difference between the 
alphabet soup FDOT, MDEX, MDA, FAA, FTA, FHA, and list goes on. 
They just know its difficult to get to the airport, and if we 
don't make it easy, they have choices, and they will make other 
choices.
    Lastly, another intermodal project that is vital to MIA is 
the 25th Street improvements that Congressman Diaz-Balart spoke 
briefly about earlier. It is also another cooperative effort 
between FDOT, the Aviation Department, and the MPO, which has 
given the project its highest priority.
    Phase One of the at-grade improvements, a new viaduct to 
State Road 826, is under construction, within its expected 
completion in July 2011. However, the full benefit of those 
improvements cannot be realized until the Phase Two project 
extends the at-grade improvements to 87th Avenue and completes 
the viaduct construction.
    If those improvements remain unfinished, the local air 
freight industry may experience losses of more than one 
billion, annually, due to excessive ground transportation 
delays, spoilage of perishable goods, missed trans-shipment 
windows and late arrival of goods spoilage of perishable goods 
and late arrival of goods at the final destination. This 
influences 87 percent of U.S. Flower imports and more than 71 
percent of U.S. Fruit and vegetable imports.
    As I speak, 22 million rose stems will be taken off 
airplanes at MIA today. Hopefully to be quickly inspected by 
Federal authorities and cleared to be loaded onto trucks and 
taken to distribution centers west of State Road 826, so that 
our mothers will have flowers to celebrate their special day.
    We applied for a TIGER grant, but our project, nor any 
other Florida project was selected. We intend to apply for a 
TIGER II grant and would appreciate your support for this 
worthy project of national significance.
    Once again, I would like to thank all of you and look 
forward to seeing you tomorrow at Miami International Airport.
    Thank you.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. Mr. Calvet.
    Mr. Calvet. Good afternoon, Chairman Oberstar, Chairwoman 
Brown, Ranking Member Mica, Ranking Member Shuster, and 
Congressman Diaz-Balart. And on my right you will see some 
charts that we have provided.
    I am Cesar Calvet, chairman of the Greater Orlando 
Authority, the aviation authority responsible for the operation 
of both Orlando International and Orlando Executive Airports in 
Orlando, Florida.
    On behalf of the authority and over 16,000 employees that 
work OIA, I greatly appreciate the opportunity to address the 
Committee.
    Let me begin by thanking you for your leadership in passing 
the American Recovery and Reinvestment Act of 2009. This 
legislation has made the five projects, three of them airfield 
resurfacing and two in-line explosive detection systems 
projects will be completed at Orlando International airport in 
the very near future.
    Additionally, we would like to thank you for the passage of 
the exemption of the alternative minimum tax on airport private 
activity bonds as part of the ARRA.
    In our two most recent bond issues, the Airport Authority 
will save over 21 million dollars over the terms of the bond 
issues. Of course, prior to being chair, I was in treasury, so 
I welcome that savings. Again, thank you.
    Serving nearly 34 million passengers in the 12 months ended 
in March of this year, Orlando International Airport is 
Florida's second commercial service airport after our friends 
in Miami and its ranked as the 13th busiest nationwide. With 
its four parallel runway system, the airport averaged over 800 
daily aircraft operations, and that is over 300,000 takeoffs 
and landings annually.
    OIA has scheduled service to 90 nonstop domestic 
destinations and 23 nonstop international destinations and is 
ranked as 3rd in the Nation in terms of origin and destination 
passengers.
    Orlando International Airport would not be where it is 
today if it had not been for the work of visionaries who 
dreamed of an intermodal facility that will serve Central 
Florida, and now with the priority given to high-speed rail, 
we, in Florida, have a unique opportunity to create a true 
intermodal transportation system in our State.
    The Aviation Authority defined and reserved rail corridors 
on our master plans throughout the 1980's and 90's, including 
actually building elevated taxiway bridges in multiple 
locations with the idea of accommodating future rail systems. 
And now we--with both commuter rail and high-speed rail 
becoming a reality, the Central Florida region and the State 
will benefit from connectivity never available before.
    The Central Florida region will work with the Tampa region 
as well as the Miami region, the State of Florida and the 
Federal Government, in order to make this project a reality, 
and we're very grateful to those who have worked tirelessly to 
contribute to this project, in particular, Congressman Mica and 
Congresswoman Brown, tireless advocates for over a decade in 
Central Florida.
    Orlando International Airport, the proposed rail facility, 
will have the ability to co-locate four rail systems at a 
single station. Of course, none of these will be built 
overnight. It will be a project that will be built in phases, 
depending on available funding and demand.
    These rail systems include high-speed rail, commuter rail, 
or Sun Rail, as it has become known in Florida, light rail and 
an airport people mover system.
    This means that travelers could arrive at Orlando 
International Airport on an airplane and travel to downtown 
Orlando or to Tampa/Miami, without setting foot in a car and do 
so in a fast efficient and safe way.
    Additionally, these projects will create jobs throughout 
the State, not only doing construction but will be as part of 
the operating system.
    We will continue to work with our partners in the local, 
state and Federal Governments in order to build a station in 
Orlando that will serve the needs of the community in the short 
term as well as into the future.
    I would like to thank the Members of this Committee and the 
Department of Transportation for their visionary decisions. 
Years from now, we will look at hearings such as todays and 
realize that a new way of interconnected and intermodal travel 
was being developed in front of your eyes.
    Mr. Chairman, Chairwoman Brown, in closing, I would be 
remiss if I would not take the opportunity to urge Members of 
this Committee and Congress for the passage of the multi-year 
FAA reauthorization bill. A multi-year bill that contains a PFC 
increase and opposes the proposed the Aircraft Rescue and 
Firefighting Standards will greatly benefit the nations 
aviation system. By way of example if the proposed standards 
were to become law, Orlando International Airport will require 
at a minimum to construct and staff one additional fire 
station. Additionally, the airport has nearly a billion dollars 
in construction projects in its capital improvement plan that 
will create much needed jobs and benefit Florida's economy, as 
a whole, if this bill were to become law.
    Mr. Chairman, this concludes my remarks.
    Ms. Brown of Florida. Thank you.
    Mr. Trujillo. Good afternoon, Madam Chair, Chairman 
Oberstar, Ranking Member Mica and Shuster, Counsel and our own 
Mario Diaz- Balart.
    I'm very thankful for the opportunity to appear before you 
today. Welcome back to the South Florida area, where our 
citizens benefit from Tri-Rail, Metro-Rail, service from Amtrak 
intercity passenger rail and where we're looking forward to 
high-speed rail sometime in the near future.
    We also have a municipal service that contributes to the 
connections of our existing rail services. Our tri-county area 
is a community that needs a significant expansion of our rail 
system. Then highway congestion in the South Florida area burns 
up millions of gallons of fuel; adds many hours of travel time, 
and its a major productivity concern for our business 
community.
    My testimony today also represents the positions of all the 
rail unions representing the men and women that build, 
maintain, and operate our freight and passenger rail system in 
the United States.
    We cannot discuss high-speed rail without discussing 
Amtrak. Amtrak is America's national passenger railroad and the 
only current provider of some form of high-speed rail in the 
U.S. Amtrak also operates successful commuter rail service in 
partnership with local and state authorities.
    In the Northeast Corridor, between Washington D.C. and 
Boston, Amtrak operates our only high-speed rail service with 
the Acela Express. Union Station in Washington D.C. and all 
rail stations in the Northeast Corridor have become intermodal 
hubs with direct connections to provide a seamless network of 
transportation options for citizens living in those 
communities.
    Amtrak has created the model for intermodal connections and 
seamless access to other transportation options with these 
operations. Such is the model that Florida should try to 
emulate as it lays out plans for developing high-speed rail and 
for its emerging or existing commuter rail operations. We're 
glad to see the Miami Center-- Intermodal Center, taking form.
    Amtrak has a dedicated and experienced workforce which 
would be a critical key component in and rolling out and 
operating high-speed passenger rail service. These employees 
have delivered Amtrak service to a growing national ridership, 
despite years of inadequate funding and an uncertain future. 
Amtrak has a level of expertise in the operation of passenger 
rail that does not exist anywhere else in this country.
    Commuter rail service operating on shared right-of-way will 
provide a vital customer base for high-speed rail. Our freight 
railroads have proven they can be successful partners with 
commuter and passenger railroads all across the country. 
Millions of commuter rail trips each year operate over tracks 
and rights of way owned by freight railroads. This movement of 
passengers takes place over the same network that supports the 
movement of goods from nearly every industrial, wholesale, 
trade, retail, agricultual, and mining business sector of our 
economy.
    Today railroads account for 43 percent of intercity freight 
volume, more than any other mode of transportation.
    Each high-speed rail corridor is unique and comes with its 
own set of opportunities and challenges. For those that will 
share right-of-way with freight operations striking the right 
balance as we grow both passenger and freight rail is the key 
to ensuring in Americas economic engine keeps running.
    The final piece of the intermodal connection is the 
American manufacturing community. A strong transportation 
system and a strong U.S. manufacturing base are intrinsically 
linked. It is good economic policy to allocate massive public 
investments for the nations infrastructure and to do so with 
the use of U.S. steel, iron and concrete, and manufactured 
goods, and equipment. Equally important, our domestic 
manufacturing capability must be ready to produce the 
locomotives, the rail cars, the passenger buses and other 
finished products that our private and public transportation 
entities will be purchasing in the years to come.
    The recent inclusion of Buy America provisions in the 
American Recovery and Reinvestment Act of 2009 builds upon and 
expands existing Federal law. A better model of investment in 
transit systems, Amtrak and an expanded high-speed rail network 
also ensures that the locomotives, rail cars, and buses are 
built in America, with domestically produced materials and 
equipment. Strong Buy America requirements and strict 
enforcement of the rules are a prerequisite for a robust 
domestic manufacturing industry, and transportation and labor 
will insist that these requirements are followed in all 
transportation investment programs.
    I appreciate the opportunity to deliver our message.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. All right, and the last speaker, last 
but not least.
    Mr. Dale. Good afternoon, Chairwoman Brown and esteemed 
Committee Members. As the final panelist this afternoon, I will 
be brief.
    Cruise Lines International Association is known within the 
industry as CLIA. We represent 25 cruise lines who own and 
operate 97 percent of all the capacity in North America, and we 
have 16,000 travel agencies all across this great country. We 
are the voice of the cruise industry.
    Florida, as you know, is the cruise capital of the world. 
In 2008, 5.1 million passengers embarked on cruises out of this 
great state, and the nations top ten busiest cruise ports are 
here, including the top three, Miami, Port Everglades and Port 
Canaveral, with Tampa being ranked number eight.
    The cruise industry directly spends 6.3 billion dollars in 
Florida in 2008, generating almost 130,000 jobs, paying 5.5 
billion dollars in wages.
    The economic benefits of the cruise industry however, do 
not end at the waters edge. Passenger data shows and tells us 
that 38 percent of embarking passengers stay one or more at 
other vacation destinations throughout this great State.
    CLIA sincerely believes that high-speed rail would promote 
economic development and sustain and grow tourism to the 
Sunshine State. Few places in the world give visitors 
simultaneous access to many top theme parks, multiple world- 
class beaches and big city culture all within 120 miles.
    With high-speed rail, visitors would easily be able to 
enjoy a vacation in a Central Florida theme park and on an 
international cruise, all on one trip to Florida. A fast and 
efficient train ride will benefit not only Floridians but also 
visitors to the State from and around the country and around 
the world.
    Madam Chairwoman, we applaud your efforts on this very 
important endeavor, and thank you for inviting us here today.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. Mr. Mica.
    Mr. Mica. Well, I'm going to have to leave along with Mr. 
Oberstar in just a minute, and I thank, first I want to thank 
all of the panelists for participating at both this panel and 
for your great testimony and your work. I've had the chance to 
work with almost all of you. Matter of fact, for Mr. Oberstar, 
this is a little out of the way and its sometimes difficult to 
get here for Members of State and I want to thank him so much 
for coming down, and I know Mr. Diaz-Balart joins me in 
thanking also our Ranking Member Mr. Shuster and Ms. Brown. I 
have been partners--we all work together as you can see. 
Sometimes we have some little family disagreements, but we 
just--if I win, everythings fine, and then we move on, but we 
try to get the job done, but thank you so much for coming, for 
your testimony.
    I do have some questions. One last thing in addition to 
that little connector of FEC, We've got to get the rail to the 
ports. We don't have rail to Fort Lauderdale from Miami. Its 
not the far. Some folks are going to stay and look at that, but 
thats essential. That takes more trucks off, just like the 
tunnel--thank you, God, for the tunnel--we got that one done 
with a little disagreement or getting it done. If you walk out 
next to this campus here, and look at the truck and the 
president--the president of the college had told me that two 
students were killed out here with that traffic. So I think 
we're doing the right thing, and we're getting all of these 
ports operating, the intermodal center operating and then the 
different modes across the state and the nation, so thank you 
so much for being with us.
    Ms. Brown of Florida. Thank you.
    Mr. Oberstar.
    Mr. Oberstar. Well, I join Mr. Mica and Chairwoman Brown in 
thanking all of you for participating in your resplendent 
testimony, each with a different aspect of the impact of high- 
speed rail on Miami, but the greater Florida community.
    I have high hopes for your High-Speed Rail Authority that 
is set up by the legislature, the--well, it's not high- speed, 
its called the State Rail Commission and certainly look forward 
to seeing how they're going to operate. That might be a very 
good idea for other states to adopt. Our State of Minnesota was 
way behind the curve in passenger rail, having neglected it for 
15 years until the--until the 8 billion dollars was provided, 
but the enormous impact of the cruise ship business on the 
States economy, the need to have a rail connection strikes me 
in the testimony, Mr. Dale, that you gave as very, very 
significant.
    And your spectacular airport, 130 gates that you're going 
to have, I think that's remarkable, and so you have the cruise 
ship; you have container cargo; you have air cargo; you have 
those millions of roses that have to move through Miami to the 
rest of America for Mothers Day.
    You have the already overcrowded Interstate highway system 
and your burgeoning, just about to flower, passenger rail 
system. Florida really is the template for intermodalism and 
multimodalism. I'm very impressed with the testimony and look 
forward to continuing the work with all of you, with our 
Chairwoman, with your great Florida Congressional delegation.
    Thank you.
    Ms. Brown of Florida. I want to really thank Mr. Oberstar. 
I know this is helping for Mr. Mica. We're not going to leave 
without--you want to say something to Mr. Oberstar, you Mario?
    Mr. Diaz-Balart. Thank you, Madam Chairwoman, just as the 
local person here, I just want to thank Mr. Oberstar, Chairman 
Oberstar, and Ranking Member Mica, not only for their 
attendance today, Madam Chairwoman, but they have been such 
strong advocates, so exceedingly fair and willing to listen and 
willing to be helpful. So one thing is showing up at this 
meeting, which was wonderful and its very helpful, but the 
other thing is day-in and day-out, and I've said that publicly 
everywhere I go. I just want to mention one more time here, 
back here, in my hometown, I want to thank you, Mr. Chairman. I 
want to thank you Ranking Member, in particular for--not 
today--not only today, but more important, for everything, 
every time I've ever gone to you on a mission, you've always 
been fair; you've always been willing to listen and again; 
thank you again so much.
    Mr. Oberstar. If you bring another shot of this coffee, 
I'll come back.
    Ms. Brown of Florida. Mr. Chairman, it was my suggestion 
that you have the Cuban coffee.
    Mr. Oberstar. All right.
    Ms. Brown of Florida. We're going to stand at informal 
recess for five minutes and then we're going to come back with 
questions, if you don't mind, while Mr. Mica and Mr. Oberstar 
leave. Thank you, five minutes, then we're--we have a series of 
questions that we want to ask you.
    [Recess.]
    Ms. Brown of Florida. Thank you. We're going to convene.
    I have a couple of questions, and then I'll turn it over.
    Mr. Galloway, the Secretary spoke about the Sunset Limited, 
and I don't want you to answer any questions about the Sunset 
Limited right now.
    When we have the hearing in Jacksonville, it's going to 
be--one of the segments is going to be on the Sunset Limited. 
That is a passion of mine, and I really want to see service 
restored from New Orleans to Jacksonville and Orlando, and it's 
not just an economic issue for me. It is if we have another 
situation, we need to be able to get people out of harms way. 
So it's a national security for me, and at that meeting we've 
already discussed it, the Committee, and we're going to invite 
some of those communities along the way, people in Pensacola, 
and Mobile, that have been talking to me about it, and that is 
something that I feel that if Amtrak doesn't want to do it, 
that is something that I want to bid out, because this is a 
service that I want to not restore, because it didn't make any 
sense when it came from California to Florida, and you had all 
of the tracks and issues.
    It never arrived on time, and it was in New Orleans at two 
o'clock in the morning. It just wasn't a system that was 
valuable. And for some reason, I don't feel that this is a 
service that Amtrak is interested in, but it certainly is a 
service that the Chairwoman is interested in.
    So with that, I'm going to move on. On Saturday, the 
Secretary and I, Secretary of Transportation, joined Amtrak as 
we tested the tracks from, you know, Miami to Jacksonville. We 
talked about that. Can you give me the status of that Florida 
East Coast line, and that is a service, it was such excitement 
when they traveled where the--they were in Brunell, and I 
understand that they came out on horses and different 
communities had bands, such an excitement along that FEC line 
from Jacksonville to Miami.
    Can you--what do you think, and how would it compliment 
high-speed rail to Florida?
    Mr. Galloway. I'll give you the Amtrak perspective, 
although the FEC project was really one of the FRA grant 
initiatives put in by the State.
    We worked very closely with Florida DOT. I was personally 
involved in that in developing several alternative service 
plans. Some had a greater percentage of corridor service versus 
long distance service, and we did a lot of analysis in looking 
at the economics of it, but also the ridership benefits and 
also the benefits to the community.
    Amtrak is firmly committed to supporting the State, should 
they pursue another round of funding on that regard. We're 
prepared to work on and refine the service plan, based on 
feedback and comments that have come from the communities and 
the freight railroads, and we're also prepared to be, to the 
extent that the law permits, a desirable leader in this effort.
    Ms. Brown of Florida. In talking about that particular line 
from Jacksonville, I think the line will go from Jacksonville 
to Miami, but it will kind of split there and go to Orlando and 
on down.
    Mr. Galloway.Part of the analysis we looked at, was either 
terminating some of the trains that ran through Orlando and 
Tampa and running them down the FEC or splitting them or 
changing them around, and the economics and frankly the 
benefits to the State clearly say that splitting the train at 
Jacksonville is the most favorable way to do that.
    So as part of Amtrak's involvement in the Jacksonville 
Union Terminal Station planning, as well as with Miami 
Intermodal Center, we've tried to make sure that the capacity 
is available to accommodate that type of train service.
    Ms. Brown of Florida. OK.
    Mr. Shuster.
    Mr. Shuster. Thank you.
    Mr. Colan, pronounce that Colan?
    Mr. Colan. Colan.
    Mr. Shuster. Colan. Theres big concerns as to how-- whats 
going to fund, especially operations of high-speed going from 
Tampa. It'll go to Miami at some point, but it seems to me that 
and I think your observation that you made about we really need 
to bid this as one project, because it seems to be from what I 
read here, is that the money-making part of this operation 
potential is really from Orlando to Miami and theres two phases 
to make money on this. First is the construction phase; 
companies come in and build it, and you know, they can make 
money on construction, and I think its more difficult for them 
to make profits, or make a profit or break even based on the 
operations end of it. So can you expand on your thoughts as to 
why it should really be--if somebody wins the Tampa to Orlando 
piece should have a--some kind of points, some kind of bonus 
points or incentive------
    Mr. Colan. Its going to depend in part from that 
standpoint, upon what are you looking for from a successful 
bidder. To the extent you're looking for some sort of financial 
contribution, we can debate to the extent to which a successful 
bidder is going to take some fare box risks. Clearly the key 
revenue is the Orlando/Miami leg. So they need some assurance 
that they're going to have the opportunity to do that leg, or 
taking a risk on the leg that we just heard some of your 
colleagues talk about.
    The Miami/Orlando leg, which you can do in two hours, on 
the other hand, people right now, if you fly its close to four 
hours, but a lot of us, and I've gone to Orlando for meetings 
including the one meeting that was attended by the Chairwoman 
and Secretary, Mr. Mica and two others. We drove back and 
forth. It just doesn't make a lot of sense. If that is the leg 
that will work with the tourists, will provide all kinds 
economic development opportunities, and will make it easier for 
a successful bidder to provide some of the financing, how much 
is subject to debate.
    Mr. Shuster. So without that piece of it, how many 
different folks do you think will be attracted to bid that----
--
    Mr. Colan. I don't know. We have a--we had a program last 
week in Miami sponsored by the U.S. High-Speed Rail 
Association, Chamber of Commerce, and my law firm. We talked 
about it. And it was very clear, working with people who were 
there, from the financial standpoint about that risk and just 
what this whole--this--Florida has the true potential to be the 
template for the country. It can be the fastest up and operated 
full high-speed rail system, from which the whole country can 
go forward. Why? Because the Tampa/Orlando leg happens to be as 
ready to build as anything.
    Ms. Brown of Florida. Would the Secretary join us up front, 
if you don't mind, because I would like for you to shed some 
light on those--on that question, if you don't mind.
    Ms. Kopelousos. Part of what--we're working on this 
process, and I had a conversation with Mr. Shuster outside 
earlier about the--thats some of the pieces that we're looking 
at, about--because it is, I mean, the part that everybody wants 
is the Orlando to Miami segment.
    Ms. Brown of Florida. Why do you think that's so?
    Ms. Kopelousos. I think------
    Ms. Brown of Florida. I mean, why do you think--why do you 
think--not the money. It's the ridership, but you don't have to 
tell me that. Why is it Orlando/Miami makes sense? It's the 
piece that really makes sense.
    Ms. Kopelousos. Well, I mean, I think the whole--for us, 
the whole corridor makes sense, because its about three of our 
most urban areas moving people between, not just Floridians but 
our visitors, as well, that want to come here, spend some time 
here and then make their up to Central Florida. And I would 
argue to North Florida, as well.
    Ms. Brown of Florida. Excuse me. You mentioned the airport. 
How many people come into the airport every day?
    Ms. Sotorrio. Well, the weekends, it could be upwards of 
80,000.
    Ms. Brown of Florida. Uh-huh.
    Mr. Shuster. And just to clarify the reason the Orlando/
Miami makes it, is because the ridership generates the revenue, 
so and more I talk about this and learn about it, you almost 
have to do it all together, because whos going to-- as you 
mentioned, whos going to take the risk if they, you know, take 
the pieces? People bid the stuff all the time and they look at 
a project and go OK, we'll take this part of it, its not that 
profitable maybe well lose money--but we're going to do it. 
We're going to do the whole project because we can make money 
at this end of it, so, Mr. Galloway.
    Mr. Galloway. I was just going to say that our experience 
and our analysis suggests that corridors less than a hundred 
miles in length, will be heavily dominated by automobiles, and 
corridors exceeding four or five hundred miles in length will 
be dominated by air. So the Orlando to Miami is the sweet spot 
in terms of distance and demographics------
    Mr. Shuster. What is the mileage?
    Mr. Galloway. It's about 210 to 220, in that range, but the 
addition of going onto Tampa with Orlando/Miami seeing an 
exchange of seats, I think there's a synergy there that 
balances in the end.
    Mr. Shuster. OK. Well, then I think its very problematic 
that we're not bidding as one, and I think theres going to be 
tremendous challenges getting the whole thing built out, with 
Tampa/Orlando not being------
    Ms. Brown of Florida. Well, let the Secretary finish up 
because part of the challenge that we have was that the 
Orlando/Tampa piece was the piece that was ready. And so that 
is the piece that we had to bid out. The environmental piece 
was not done from Orlando to Miami, and that's what we're doing 
now.
    Ms. Kopelousos. Madam Chairwoman, thats what we moved 
forward on. We have about 1.3 million right now putting towards 
that to get that bid in so that we can. The sooner we can do 
it, the better off we're going to be. And I think a lot of 
that, you know--part of its going to be working with the FRA 
and the technology, I mean, thats going to be a big key to 
this.
    Mr. Shuster. Well, I was going to ask Mr. Szabo this 
question, but see if you have any light to shed on it, the-- 
neither the environmental analysis for Orlando to Miami high- 
speed rail, nor the FEC Amtrak expansion request will move 
forward for technical rule by the FRA. Do you know why that 
was? Just wasn't far enough along?
    Ms. Kopelousos. Part of it--lets separate them. The Miami 
to Orlando piece, it was because we didn't have any part of 
the--we had just the cursory kind of environmental work done. 
On the FEC corridor, we had a little bit more than that, and 
what We've done is worked with FRA and Amtrak, on trying to get 
us in a position. I mean, our folks are working around the 
clock on it now.
    Mr. Shuster. And how far away is it before you get 
submitted something, is it close?
    Ms. Kopelousos. We think by August, September timeline, 
we'll have a final document. We think--we'll know what we need 
to know in July. Its going to depend on what the-- what the 
rules look like.
    Mr. Shuster. Right.
    Ms. Kopelousos. That FRA puts out.
    Mr. Shuster. And would it be fair to say, you believe here 
in Florida that if you could keep the Orlando line piece, you 
know, do the Tampa/Miami piece all in one process, you'd have a 
much greater chance of being successful and finding the 
funding; is that a fair assessment or?
    Ms. Kopelousos. And I think you never want to split a 
project up. I think Congressman Diaz-Balart is witnessing that 
viaduct. When we split a project up because we didn't have the 
funds to do it, you get one piece, and then you want to fund 
the other piece. Of course we want to get it done, but thats 
why we consider it, and Mr. Shuster, thats why We've always--
its one corridor. Its just two segments of it.
    Mr. Shuster. Right. And also, a question for Ms. Sotorrio, 
did I get it right?
    Ms. Sotorrio. Sotorrio.
    Mr. Shuster. Sotorrio, OK. I had it spelled phonetically. I 
still screwed it up. My Spanish isn't that good.
    Could you describe some of the innovative financing that 
you used to build the Miami Intermodal Center, just some of the 
different things you used--employed.
    Ms. Sotorrio. Sure, well, the Secretary probably would be 
able to speak to it better than myself. Let me give you the 
airport perspective on that.
    You know, we, we in the community, knew that we had to 
provide interconnectivity between all of these modes, and 
this--Miami Intermodal Center is the project that was born out 
of that need, and so the biggest challenge, of course, was 
putting together all the pieces of that funding. So we started 
with, you know, FHA, FTA, that whole alphabet soup. FDOT 
obviously is the project manager, it has the biggest, you know, 
the largest part of that funding, but then there was also a 
need to be able to, you know, get loans.
    So we were able to get a Federal TIFIA loan. That was a 
very major part of this, and we, at the airport have to get, 
you know, special approval from the Federal Aviation 
Administration in order in order to build the connector, the 
people mover that will connect the Miami Intermodal Center with 
the airport terminal, because theres a great deal of 
restrictions on the use of airport revenues off airport 
property, and even though this is just slightly off airport 
property, we had to have certain right-of-way and things in 
order for FAA to be able to approve it.
    Ms. Kopelousos. Chairwoman and Mr. Shuster, I think one of 
the keys to this, we were the first ones to utilize the TIFIA 
program. We went through some growing pains on that first one, 
but I will tell you, it is something that we have utilized. It 
is wonderful, its--its--it has really been helpful for us in 
getting.
    You and I talked about the 595 project. We got a TIFIA loan 
for that, as well. Its one of those innovative financing tools 
that we can't thank you enough for, because we truly have 
utilized them here. And I will tell you that USDOT, over the 
years, has made improvements to us getting through the process 
and making it easier to manage and to work with this loan, so I 
think other states will tell you the same thing. Its been an 
extremely successful program.
    Mr. Shuster. OK. Thank you.
    Ms. Brown of Florida. And as you discuss that, of the TIFIA 
loan, would you give us that in writing, because we're 
reviewing it and trying to figure out what kind of changes we 
need to make to it. If it's a good program, we need to know 
that.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. I'll be--I'll be brief.
    I wanted to mention, which I mentioned in the beginning, 
the 100 million dollar credit that was given by the Committee, 
with somebodys help, which allowed them, the State, to put in 
100 million dollars for what was in essence was mostly a local 
project, part State, but I think that was also very helpful at 
the time.
    Madam Chairwoman, if I may take a point of personal 
privilege to mention that We've heard from some very special 
people, but the woman that just spoke to us right now is 
retiring after how many years?
    Ms. Sotorrio. More than I have to admit. Thirty-five with 
the County, 21 at the airport.
    Mr. Diaz-Balart. Yes, and she has been--those of us who 
have had the privilege of working with her over the years, have 
just had a great experience, a straight shooter, always tells 
you the truth, and just what a public servant should be, so I 
just want to thank you for your years of service.
    Ms. Sotorrio. Thank you.
    Mr. Diaz-Balart. And again, I just yield back.
    Ms. Brown of Florida. Mr. Trujillo.
    Mr. Trujillo. Yes, ma'am.
    Ms. Brown of Florida. Mr. Oberstar left a question for you.
    Mr. Trujillo. OK.
    Ms. Brown of Florida. OK. What is your view of the 
accomplishment of freight and passenger rail in the same 
corridor as far as operational levels, for example, scheduling, 
tracks, maintenance, those kinds of things?
    Mr. Trujillo. Well, as I said in my statement, each 
corridor, although I was speaking to high-speed rail corridors, 
for each corridor has got its own challenges.
    Ms. Brown of Florida. Well, you know we're not just talking 
about high-speed------
    Mr. Trujillo. Right. Down here in South Florida for 
example, We've gone through growing pains with Tri-Rail in 
terms of the relationship between the service and its host 
railroad. Even though the state owns the line, the track's 
lease rights to CSX exist; and thats always been an issue, and 
I think that progress was made tremendously and particularly as 
dispatching changes hands. The emphasis on who gets the right 
of way, at what time, and the coordination of that has been 
improving, and I think that the freight railroads do play a 
positive role and, but again, it goes in a corridor-by-corridor 
basis and also even on a railroad by railroad basis. The same 
level of cooperation that you see, perhaps from CSX, you may 
not see from another railroad, so.
    Ms. Brown of Florida. OK. Couple of more questions.
    Let me just ask, what benefits will high-speed passenger 
rail bring to the Miami area as far as economic and businesses 
opportunities, and I'll just start right here. Again, you all 
can just take one minute and tell me how will the community 
benefit from high-speed?
    Mr. Giuletti. Well, personally, the same way that I return 
in saying when you put in a regional commuter rail system, the 
integration between all of the partners that are there, the 
fact that it provides alternatives, and you look at Miami alone 
and look at what the opportunity is, not only as the gateway, 
or the entranceway in for people that are coming in from other 
countries to be able to access these systems.
    You heard what an economic generator the ports are. This 
ends up being the--and I'm talking about the seaports--the same 
type of economic generator. The opportunities are fantastic, 
but business opportunities are fantastic and the growth that 
you will see from it, and they've already come out at the 
Federal level to say for every dollar that is invested into 
mass transportation or transportations, you get a six dollar 
return in economic growth, and I would say that this will be 
definitely an example of that, particularly in a corridor of 
this nature.
    Ms. Brown of Florida. Mr. Galloway.
    Mr. Galloway. I think reducing travel times to around two-
and-a-half or three hours is the upper bound in terms of 
business travel. That has a remarkable effect in bringing wider 
areas of the state or a region together and creating synergies, 
in terms of business, in terms of recreation, in terms of 
tourism, that don't exist when the travel times are four, five, 
six hours. And we see that routinely on the Northeast Corridor, 
where people make two or three trips a week traveling 200 or 
300 hundred miles back and forth, and they wouldn't otherwise 
do it. They wouldn't drive; they wouldn't fly, because it takes 
too much time, and the convenience of it is such that it really 
starts to reinforce the overall investment in the communities 
in the region and taking advantage of it.
    Mr. Colan. In addition, it also reduces demands on roads, 
on airways, reduces use of fuel, creates jobs both for 
construction and then operation. It just has a synergistic 
effect up and down the corridor.
    Ms. Kopelousos. I think I'll just add briefly, it really 
can begin changing first day. I mean, when you look at moving 
people and how efficiently you can do it on the rail corridor, 
you've got people commuting to different areas that they 
wouldn't necessarily commute to, so it opens up a lot of 
opportunities, economically and for just--for quality of life.
    Ms. Sotorrio. Well, I mentioned earlier, that 70 percent of 
the States arrivals from abroad, come through Miami 
International Airport, and having the high-speed rail system, 
that can connect those international visitors with major 
tourist attractions in Central Florida, I think will just be a 
tremendous economic boom, and of course, European visitors are 
very used to taking rails, so it really is a natural means.
    Mr. Calvet. Well, as I mentioned before and I think others 
have said, not only jobs for the construction, but jobs to run 
the system, but I feel that we all will benefit, because people 
will then go all the way from the north and all the way from 
the south, bring them in, and I feel that because they have 
less time to travel, and what I mentioned on my remarks, you 
could do a lot of these things without actually in a car, and 
thats why the rail would be a tremendous benefit to the entire 
State of Florida.
    Mr. Trujillo. Madam Chair, to us theres two--two parts of 
the benefit. Number one, of course, the obvious of being able 
to move people more efficiently, which by the way, would be a 
great benefit to our business community, which again their 
delivery times and everything else, particularly in the urban 
tri-county area takes a toll on them, and so every rider or 
every driver you take off the road will be a meaningful step.
    The second part is jobs. Every investment that you make in 
addition to what Joe was talking about, six dollars, if you 
create jobs, good paying jobs, not only in the rail industry 
but also in ancillary industries, like building the buses, 
building the rail cars, the locomotives, you know, every step 
of the way from the moment that you are mining the ore or the 
steel and bringing those raw materials to bear, that is 
unquantitative in terms of good paying jobs that pay taxes into 
our economy.
    Mr. Dale. Chairwoman Brown, as you know, the cruise 
industry has the highest customer satisfaction rating in the 
travel industry today, and we would view this as one more 
element in building upon the customer experience by being able 
to package more effectively with the entire State, so its jobs 
and increasing and improving customer satisfaction.
    Ms. Brown of Florida. I think Mr. Mica mentioned that if 
we're not going to hook up to the terminal, the cruise 
terminal, it would be a great mistake, and as we move forward, 
I mean, you all need to figure out how you all can be partners 
with us, working with the state and Federal Government, because 
I mean, you have how many passengers just in the Miami/Orlando 
area?
    Mr. Dale. Over 5 million in the state here.
    Ms. Brown of Florida. OK, so, I mean, that's a broad share, 
more than just cruise, which is very comprehensive, but they 
want to go to Disney, and they want to come down to South Beach 
or whatever, so it's wonderful.
    All right, Mr. Shuster.
    Mr. Shuster. It is wonderful.
    Ms. Brown of Florida. Economic development is great.
    Mr. Shuster. Mr. Giulietti, one last question.
    Mr. Giuletti. Sure.
    Mr. Shuster. I think in your testimony you talked about 
some of the challenges between passenger and freight rail 
implementing positive train control, and that it seems to be 
more and more expensive, and the benefits are less--less 
measurable--less measurable benefits of it. Can you talk about 
some of the specific challenges you're facing in trying to 
implement PTC before the end of 2000?
    Mr. Giuletti. I mentioned that from both the standpoint of 
being down here in this corridor, and also I'm the vice chair 
for Commuter and Intercity Rail, which includes the high-speed 
rail, so its been an industry situation because whats happened 
is We've gotten a mandate that by 2015, we have to have 
positive train control.
    First let me say, that from a transportation standpoint, 
the public sector dealing with passengers, we welcome positive 
train control. It is the right move. The issue for us has been 
that in the last two years, almost every system nationally has 
gone through what We've gone through here in Florida, and thats 
that We've had cutbacks in service, increases in fares.
    We're trying to deal with the economy slowing down and the 
challenges that that presents, so its not that they're in a 
situation that we're all put into trying to have by last Friday 
our documents in to go, and show how we're going to go and 
implement it, and the other end of it, is then how are we going 
to be able to fund it going forward, and it is truly a problem 
for every system out there.
    We are currently trying to work both at the Congressional 
level for those systems that do have cap signals, which is a 
safety measure that possibly we can look at deferring some of 
those time frames, while we grow to go forward with the time 
frames that are necessary for systems like ours.
    We operate with a freight carrier. That freight carrier 
does not have a cap signal system or positive training control 
system in right now. As this law mandates that they go and put 
it in, thats a tremendous advantage for us. So let me be clear 
that from the one-hand, want this desperately and the other 
hand, whatever can be done--and I mentioned this to Secretary 
Szabo and I had also mentioned it at the after conference to 
Secretary LaHood, and I've also met with Peter Rogoff on this, 
as well-- anything that can be done on the public sector side 
to help us in the funding on this, would be greatly appreciated 
including, you know, I don't know how to say this, but loans 
that can be made available. Its easier on the freight side to 
be able to pay some of those loans back than it is on the 
public sector side, but at least give us some breathing room to 
be able to try and go and do that. So anything that can be done 
along those lines would be a tremendous help to us.
    Mr. Shuster. Well, and I think as I continue to talk to 
people around the country, this is a bigger and bigger issue, 
and it seems to me that we may want to push the date, down the 
road, because nobody is in a financial position to be able to 
spend that kind of money now, and hopefully, the economy turns 
around shortly and everybody is flush again with their cash.
    Mr. Giuletti. Madam Chair?
    Ms. Brown of Florida. Oh, yes, sir, yes, sir.
    Mr. Giuletti. I just want to say that I cannot go and make 
that statement. We've made the request, but I do know that 
Chairman Oberstar has a particular concern that if dates move 
back, then people have a way of adjusting to those dates. So 
thats why I'm saying, whatever can be done to try and help in 
terms of moving the thing forward, I do think that you are 
right--in the right court on this, because part of the issue 
right now is if forced to do it sooner rather than later, some 
of the new technology thats evolving that would allow wireless 
opportunities, could be further along and present a few more 
opportunities for everybody. So I welcome an opportunity to go 
and talk about that another time.
    Mr. Shuster. The other side of that coin, is if you force 
businesses to spend money they don't have, what you end up 
doing is eliminating jobs, eliminating services. So it's a 
balance but thats my question.
    Ms. Brown of Florida. That ends your statement.
    Mr. Shuster. Yes.
    Ms. Brown of Florida. Let me just say that in that area, 
we're going to work together in a bipartisan way. We want 
safety, but its a balance, and we are willing to work to come 
up with how we're going to move forward, so it is the 
sensitivity of the entire Committee.
    Let me make just one announcement.
    At 5:30, I along with the Secretary of Transportation and 
the Florida Department of Transportation, will host right here 
in this room, a meeting with disadvantaged businesses, 
enterprises, and how they can participate in making sure that 
they are participating with the stimulus and also with how they 
can do the bids with the Federal Government and with the State 
of Florida. That's at 5:30 in this room.
    And let me also thank the witnesses for their testimony and 
the Members for their questions.
    Again, the Members of this Subcommittee may have additional 
questions for the witnesses, and we will be asking you to 
respond to those questions in writing, and the hearing record 
will be held for thirty days for those wishing to make 
additional statements or for further questions.
    Unless there is further business, the Subcommittee is 
adjourned.
    [Whereupon, the Subcommittee was adjourned.]

</pre></body></html>
